<html>
<title> - TRANSPORTATION AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
TRANSPORTATION AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              


                        WEDNESDAY, MAY 19, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 4:09 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Patty Murray (chairman) presiding.
    Present: Senators Murray and Mikulski.
    Also present: Senator Cardin.

             WASHINGTON METROPOLITAN AREA TRANSIT AUTHORITY

STATEMENT OF HON. PETER BENJAMIN, CHAIRMAN, BOARD OF 
            DIRECTORS

               OPENING STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Good afternoon. This subcommittee will come 
to order.
    Our apologies for being late this afternoon, we are having 
votes on the floor and could not get here in time. So I 
apologize to all of our witnesses and all those who are here, 
but we are here and ready to go.
    And this afternoon, we are holding a hearing on the 
President's budget request for the Washington Metropolitan Area 
Transit Authority [WMATA]. We are going to be hearing testimony 
from Senator Cardin. He is going to be joining us here in just 
a few minutes.
    We will have two panels. The first panel following Senator 
Cardin will include the Chairman of WMATA Board of Directors, 
Mr. Peter Benjamin, and Mr. Richard Sarles, the Interim General 
Manager.
    The second panel will consist of three witnesses: Ms. 
Jackie Jeter, who is the president of Local 689 of the ATU; Mr. 
Jack Corbett, director of MetroRiders.org; and Mr. Francis 
DeBernardo, chairman of the Riders' Advisory Council.
    I want to welcome all of our witnesses at this time and 
really appreciate your being here today.
    Metro has often been called the jewel of the Washington, DC 
area's transportation system. It is a web of rail and bus lines 
that reaches into almost every neighborhood across the region. 
On a typical work day, it carries passengers on more than 1.2 
million trips, making it the second-largest heavy rail and 
sixth-largest bus transit system in the Nation.
    Its trains and buses cross two States and the District, 
offering mobility, reducing congestion, and reducing air 
pollution. For those neighborhoods clustered around its 
stations, it is a proven engine for economic development. Its 
difficulties--management, financial, and especially safety--
have been deeply troubling to this subcommittee, which have 
long been a champion of public transit and strong supporter of 
Metro.
    In the past year, 13 people have died in 4 separate 
accidents at Metrorail, including 8 passengers and 5 employees. 
All of these accidents were preventable, which is a tragic 
indictment of management and the agency's safety culture.
    Like many other transit systems around the country, Metro 
faces a severe operating budget shortfall, and its Board of 
Directors is considering significant fare increases that are 
required to restore the system's financial footing. Given the 
need to also replace much of Metro's aging rail fleet, parts of 
which date to the 1970s, and upgrade its track signaling 
systems, fare increases and other steps to increase revenues 
and control costs are unavoidable. They are also essential to 
any future growth of the system since financial stability is a 
key requirement for support from the highly competitive New 
Starts program administered by the Federal Department of 
Transportation.
    Tackling these challenges is the responsibility of Metro's 
board and its new interim general manager, Mr. Sarles, and they 
clearly have their work cut out for them. Just 2 weeks ago, we 
saw communications delays and confusion over what could have 
potentially been a serious incident at Wheaton station.
    That said, I am encouraged by the efforts to restore a 
culture centered on safety, where safety is considered and 
factored into every decision concerning operations. In recent 
weeks, Metro has hired a new Chief Safety Officer committed to 
filling key vacancies in its Safety Division, taken steps to 
increase track worker safety, and committed to address the 
findings of the FTA's highly critical review by the end of the 
summer.
    It is still early, and changing any complex organization, 
even one with large numbers of dedicated workers such as Metro, 
does not happen quickly. Metro's problems did not develop 
overnight, and some solutions will require time and commitment. 
For that reason, Metro must be relentless on this point. Its 
passengers, employees, and the taxpayers will expect nothing 
less.
    The real test for Metro's new leadership will be its 
ability to demonstrate continued progress, the most visible 
sign of which will be the absence of further accidents, as well 
as upgrading the system to better serve its riders. The Federal 
Government is supporting Metro's efforts to right itself, both 
through the technical assistance provided by the Department of 
Transportation, as well as through direct appropriations.
    Last year, Congress provided almost $200 million in 
stimulus funding on top of the $239 million in formula and bus 
grant funding awarded to Metro. For fiscal year 2010, Congress 
added a further $150 million to support Metro capital and 
preventive maintenance expenses, focusing on those investments 
that most improve safety. This was in addition to the $85 
million appropriated for the Dulles airport extension.
    I was pleased to see the administration continue both 
investments in Metro in its fiscal year 2011 budget, with 
another $150 million requested for capital expenses and $96 
million for the Dulles extension. I trust this strong 
demonstration of support will encourage Metro's three funding 
partners to continue to meet their responsibilities toward the 
system as well.
    During this hearing, we will have the opportunity to look 
into these important issues. It is impossible to imagine the 
Washington region without Metro. It has transformed the city 
and the region, and we owe it to present and future generations 
to not just maintain it, but to make it better.
    So I look forward to the testimony today, and I want to 
thank Senator Mikulski, who has been absolutely wonderful in 
helping us put this hearing together. Her adamant support of 
the system and making sure it works right is a real tribute to 
her work as a Senator from Maryland. And I am delighted she is 
here today.
    Senator Mikulski.

                STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Thank you very much, Chairwoman Murray.
    I want to thank you for holding this very important hearing 
on the WMATA budget.
    I know that we will be very shortly joined by Senator 
Cardin, and I want to thank those in the audience for their 
patience while we were working through some parliamentary 
quagmire on the financial service bill.
    We want to thank you for your courtesy to allow us all to 
participate. As a member of the subcommittee, we appreciate 
that you have expanded it. Senator Warner is on the Banking 
Committee and is on the floor with Senator Webb. We hope they 
will join us.
    But Senator Murray, I also would ask unanimous consent, 
before I begin my remarks, to put into the record a letter from 
Governor O'Malley. Governor O'Malley wishes to inform you 
through me that he is committed to providing Maryland's full 
share for the regional funding to match the statutory Federal 
investment in WMATA.
    There was some confusion about that. He wanted to assure 
you in the strongest possible way that Maryland will meet its 
commitment. However, he does call for budget reform with WMATA 
and encourages that they go to a 6-year capital program, 
updates on their budget process, and so on. I would like to 
discuss that with you at a later time, but I ask unanimous 
consent that the Governor O'Malley letter be in the record.
    Senator Murray. The letter will be put into the record.
    [The information follows:]
                                    Office of the Governor,
                                   State of Maryland, May 18, 2010.
The Honorable Barbara A. Mikulski,
United States Senate,
503 Hart Senate Office Building, Washington DC 20510.
    Dear Senator Mikulski: The State of Maryland is committed to 
providing its full share of the regional funding to match statutory 
Federal investment in the Washington Metropolitan Area Transit 
Authority (WMATA). In order to qualify for $1.5 billion in Federal 
funding dedicated for WMATA system preservation over 10 years, the 
Maryland Department of Transportation (MDOT) Consolidated 
Transportation Program (CTP) reflects annual on-going contributions of 
$50 million--100 percent of our share of the region's matching funds.
    To ensure these funds are programmed and managed responsibly, we 
and our partner jurisdictions are calling for WMATA to develop and 
implement a capital programming process much like the one the MDOT has 
used for over 30 years. The key elements of the process include:
  --A 6-year capital program period;
  --Formal annual updates as part of the budget process; and
  --Quarterly reviews focusing on project cost, schedule and scope 
        changes, updated project cash-flow projections, and revised 
        estimates of overall capital program components.
    I thank you for your efforts to secure dedicated Federal funding 
for WMATA as we all work to ensure the safety, security and reliability 
of transit in the national capital region. We were the first of the 
three jurisdictions to program our matching funds, have always 
fulfilled our funding commitments to WMATA, and assure you that WMATA 
funding will continue to be a top priority for Maryland in the years 
ahead. For further information, you may contact me at any time or 
direct your questions to MDOT Secretary Beverley K. Swaim-Staley at 
410-865-1001.
            Sincerely,
                                           Martin O'Malley,
                                                          Governor.

    Senator Mikulski. And to assure you of that.
    Also, Senator Murray, there was concern, and I would want 
to work with you on this, that as we go forward with our 
statutory requirement of $150 million, that States and 
localities do not reduce their money. That this money was in 
addition to the contributions that were pledged by State and 
local governments. So we are in addition to. We are not in lieu 
of what either Maryland, Virginia, or the District of Columbia, 
the Virginia localities would contribute.
    As we work on this bill, I would like to talk with you 
about a requirement that there be maintenance of effort by all 
of those who are signatories to their original agreements.
    Senator Murray. I would be happy to discuss that with you.
    Senator Mikulski. But, you know, we need the will, a 
wallet, and a way. While often this hearing focuses on the 
wallet, we have to talk about what is the way forward, and do 
we have the will and the methods to accomplishment?
    You rightly have identified that Metro's safety and 
operational reliability is absolutely critical. It affects 
daily riders for those who come to the Capital, for those who 
commute from within the region, or others who come from around 
the world. It is important to those who work at the Metro, 
operating the trains, fixing the tracks, managing the stations.
    Madam Chair, you have to know, and others, that we have 
been very impatient with Metro; we don't want any more 
promises, memos, or laundry lists. We need action on safety. I 
hope at today's hearing we can get into the specifics of what 
Metro has done already to improve safety? What do they plan to 
do? And how have we made progress?
    I would hope that we could get into their measurements in 
metrics to really identify, have they made progress in both 
improving their safety systems, the personnel involved in the 
safety systems, and in the leadership and the changing of the 
culture. You might be interested to know that Metro has no line 
item in its budget for safety, or maybe it has been recently 
added as a result of some of the new initiatives that we have 
encouraged them to take.
    Like you, I am very impatient over the fact that it has 
been almost 1 year since the deadly crash at Metro. Thirteen 
more people have died: eight Metro riders; and five Metro 
employees. These aren't numbers. These aren't statistics. These 
are human beings.
    We have had audits. We have reports. We have 
recommendations. We need action. Audits, reports, and 
recommendations are a pathway, but now we need action.
    I remain just as worried about the safety of Metro as I was 
last June. We are now 11 months from that tragic crash, and we 
need to have a sense of urgency. What results does Metro have 
to show? The Federal Transit Administration [FTA] audit found 
persistent, ongoing, and systemic problems, and a Metro Safety 
Department, actually, initially barely functional.
    At various points, Metro leadership was ignorant of safety 
when they made budget decisions, and also they were not getting 
regular safety reports. So, today, I hope we can see what is 
the change, how has it changed, and for the Federal 
Government's contribution of $150 million, what kind of change 
are we going to get for their money?
    Madam Chair, I want to acknowledge, both to you and to all 
here, all of us need to be safety officers. It is not only the 
people who operate who are charged at the Metro, but also all 
of us--those of us who fund it, and those of us who have 
political responsibility for it. We all need to commit 
ourselves to being safety officers.
    We need to know, as I said, what has Metro done to improve 
the safety, implement the FTA audit recommendations, and what 
are the mechanisms they have in place to measure their 
performance?
    Metro is America's subway. This is an annual dedicated 
funding that is authorized. We ask you to continue the $150 
million Federal contribution, but for our money, we want 
safety, operational reliability, and a way that will also be 
sustained. We really do want to insist on those outcomes.
    Senator Murray. Senator Mikulski, thank you so much for 
your opening statement.
    I know we are waiting for Senator Cardin. He will be here 
in just a minute. I would like both of our first witnesses, Mr. 
Sarles and Mr. Benjamin, to come up to the table, and we will 
take their testimony while we are waiting for Senator Cardin to 
do that.
    I am going to have to apologize. I have been called back 
over to the floor, Senator Mikulski. And I will ask Senator 
Mikulski to chair this hearing and to take the testimony. And 
if I am not able to return in time, Mr. Sarles and Mr. 
Benjamin, I do have questions from the subcommittee that I will 
submit to you for writing.
    But Senator Mikulski, if you would not mind, if I could 
turn the chair over to you for a short while here?
    Senator Mikulski. Be happy to do it. If you can come back, 
we will look forward it. If not, we will move expeditiously.
    Senator Murray. Okay. With that----
    Senator Mikulski. Mr. Benjamin and Mr. Sarles. Mr. Sarles 
is the Interim General Manager, and Mr. Benjamin is the 
Chairman of the Board.
    Senator Murray. Thank you.
    Senator Mikulski [presiding]. Okay. Thank you.
    You may proceed.

                    STATEMENT OF HON. PETER BENJAMIN

    Mr. Benjamin. Senator Mikulski, the comments that you have 
made and those by Chairman Murray are exactly right, and I am 
not sure that I can say them much better. I will try anyway to 
give my testimony.
    I am honored to appear before you today as the Chairman of 
the Board of Directors of the Washington Metropolitan Area 
Transit Authority. Metro's General Manager, Richard Sarles, 
will cover this agency's specific initiatives with regard to 
improved safety and service. I would like to provide the 
context for Metro's fiscal year 2011 appropriations request by 
giving the subcommittee some background about the Metro system 
and our capital needs.
    First, let me quote from a letter which President Lyndon 
Johnson wrote to Congress in 1965. ``The problem of mass 
transportation in the Washington area is critical. It is also a 
problem in which the Federal Government has a unique interest 
and responsibility. Improved transportation in this area is 
essential for the continued and effective performance of the 
functions of the Government of the United States, for the 
welfare of the District of Columbia, and for the orderly growth 
and development of the national capital region.''
    In 1966, Congress responded by authorizing the creation of 
the Washington Metropolitan Area Transit Authority as an 
interstate compact. Today, the Federal Government is uniquely 
dependent on Metro, something that distinguishes Metro from 
other U.S. transit systems. One-half of all Metro stations are 
located at Federal facilities, and over 40 percent of peak 
ridership consists of Federal employees.
    A quick listing of some of our rail stations demonstrates 
Metro's close connection to the Federal Government--Federal 
Triangle, Smithsonian, Capitol South, Navy Yard, Pentagon, and 
Arlington Cemetery, to name a few. The Federal Government is 
particularly reliant on Metro for special national events, such 
as inaugurals and state funerals, transportation of visitors to 
the Nation's capital, and persons doing business with the 
Federal Government.
    Without Metro, it is hard to imagine how this region would 
have handled the massive influx of visitors who came to attend 
the inauguration of President Obama in January 2009. Federal 
disaster recovery plans in this region rely heavily on Metro, 
and Metro played a key role on September 11 in moving people 
out of the downtown core.
    Congress recognized the Federal Government's unique 
relationship with Metro when it passed the Passenger Rail 
Investment and Improvement Act of 2008, PRIIA, which authorized 
$1.5 billion for Metro's capital and preventive maintenance 
needs to be equally matched by Metro's State and local funding 
partners.
    I want to thank this subcommittee and your colleagues in 
Congress for appropriating the first installment of that 
authorization last year. We are requesting that another $150 
million be appropriated in Federal fiscal year 2011, as 
provided for in the President's fiscal year 2011 budget.

                           PREPARED STATEMENT

    On behalf of Metro's Board of Directors, I thank you for 
your long history of support for Metro and your leadership in 
providing funding for the rehabilitation of Metro facilities 
and the replacement of Metro equipment. It is no understatement 
to say that just as the Federal Government depends on Metro, 
the future of Metro depends upon the Federal Government and the 
funding authorized under PRIIA.
    Thank you for allowing me to testify today. I look forward 
to answering your questions.
    [The statement follows:]
               Prepared Statement of Hon. Peter Benjamin
    Madam Chairman, Ranking Member Bond, and members of the 
subcommittee, I am honored to appear before you today as the Chairman 
of the Board of Directors of the Washington Metropolitan Area Transit 
Authority (Metro). Metro's General Manager, Richard Sarles, will cover 
the agency's specific initiatives with regard to improved safety and 
service. I would like to provide the context for Metro's fiscal year 
2011 appropriations request by giving the subcommittee some background 
about the Metro system and our capital needs.
                  metro serves the federal government
    The problem of mass transportation in the Washington area is 
critical. It is also a problem in which the Federal Government has a 
unique interest and responsibility . . . improved transportation in 
this area is essential for the continued and effective performance of 
the functions of the Government of the United States, for the welfare 
of the District of Columbia, [and] for the orderly growth and 
development of the National Capital region.----President Lyndon 
Johnson, 1965 letter to Congress.

    It may surprise you to learn that Metro's relationship with the 
Congress began over 100 years ago, just a few yards away from where we 
are sitting today. In 1906, when the subway was built connecting the 
U.S. Capitol to the Senate Office Building (now the Russell Building), 
people started thinking about building a subway for the city. The 
Washington Post published an article in 1909 titled, ``Why Not a Real 
Subway System for Washington?'' A 1931 Post article included a map of 
downtown Washington showing possible subway routes.
    In 1955, Congress became directly involved in the discussion, and 
approved $500,000 to have the National Capital Planning Commission 
conduct a ``Mass Transportation Survey'' for the Washington region. The 
results of that survey led to passage of the National Capital 
Transportation Act of 1960, which created an independent Federal agency 
to plan a regional system of highways and mass transit to serve the 
Nation's Capital. In 1966, Congress authorized the creation of the 
Washington Metropolitan Area Transit Authority as an interstate compact 
agency of the State of Maryland, the Commonwealth of Virginia, and the 
District of Columbia to plan, finance and construct a rail transit 
system for the region, and early the following year Metro was ``born.''
    Today, the Federal Government is uniquely dependent upon Metro, 
something that distinguishes Metro from other U.S. transit systems. 
One-half of all Metrorail stations are located at Federal facilities, 
and about 40 percent of peak ridership consists of Federal employees. A 
quick listing of some of our rail stations demonstrates Metro's close 
connection to the Federal Government: Federal Triangle, Smithsonian, 
Capitol South, Navy Yard, Pentagon, and Arlington Cemetery, to name a 
few. It is not surprising that in 2005, a ``Blue Ribbon'' report found 
that the Federal Government, the region's largest employer, is the 
``largest single beneficiary'' of Metro.
    The Federal Government is particularly reliant on Metro for special 
national events such as inaugurals and State funerals, transportation 
of visitors to the Nation's Capital and persons doing business with the 
Federal Government. Without Metro, it is hard to imagine how this 
region would have handled the massive influx of visitors who came to 
attend the inauguration of President Obama in January 2009. Metro 
carried 1.5 million riders on Inauguration Day, providing attendees 
with a convenient--albeit crowded--transportation alternative.
    Federal disaster recovery plans in this region rely heavily on 
Metro, and Metro played a key role on September 11, 2001, in moving 
people out of the downtown core. People were able to rush home to their 
families because Metro employees stayed on the job, operating trains 
and buses, staffing stations, and coordinating service from a command 
center. Other Federal plans, such as the BRAC-related consolidation of 
Walter Reed Army Medical Center and Bethesda Naval Hospital, also 
depend upon Metro; the consolidated facility, which will serve tens of 
thousands of patients and visitors annually, will be located at the 
Medical Center Metrorail station.
    In fact, it is fair to say that Metro is the backbone of daily 
Federal Government operations. During the recent snowstorms, when it 
was impossible to operate Metrobuses safely on surface streets and to 
run Metrorail trains on above-ground tracks, the Federal Government 
decided to close. With well over 100,000 Federal employees regularly 
commuting by Metro, and thousands of others using Metro to access 
Federal facilities every day, the Federal Government depends heavily 
upon the system.
                         metro's capital needs
    Congress recognized the Federal Government's unique relationship 
with Metro when it passed the Passenger Rail Investment and Improvement 
Act of 2008 (``PRIIA'', Public Law 110-432), which authorized $1.5 
billion for Metro's capital and preventive maintenance needs, to be 
equally matched by Metro's State and local funding partners. I want to 
thank this subcommittee and your colleagues in Congress for 
appropriating the first installment of that authorization last year. We 
are requesting that another $150 million be appropriated in Federal 
fiscal year 2011, as provided for in the President's fiscal year 2011 
budget request.
    Why is this funding so important to Metro? Because we have a 34-
year old rail system, which is not like it used to be when it was new. 
It has old rail cars, track bed, power equipment, and communications 
systems. More than one-half of our bus garages are over 50 years old 
and some buses are 15 years old. As the equipment and facilities age 
they become less reliable, break down more often, and need more 
maintenance. We have to replace our tracks, trains, and buses, and must 
rehabilitate our stations, bridges, and maintenance facilities. We have 
30-year-old ventilation, lighting, and communications systems which 
must be maintained or replaced. Some of our station platforms are 
crumbling, our escalators and elevators need major repairs, and water 
is leaking into our tunnels. We must do all of the work required while 
providing service to hundreds of thousands of customers daily.
    We have been fortunate in that our funding partners--the Federal 
Government as well as the State and local jurisdictions that we serve--
have demonstrated strong support for Metro's capital program. As a 
result, Metro has been able to build out and operate a full 106-mile 
rail system, run a fleet of 1,500 buses, and provide paratransit 
service to thousands of customers with disabilities. We have also been 
able to make a number of critical investments in the system, including, 
for the first time, running 8-car trains. (When the Metro system first 
opened in 1976, we ran 4-car trains--hard to imagine today!)
    Going forward, however, Metro needs increased investment to keep 
the system in a state of good repair. We are currently developing our 
capital program for the next 6 years. I expect that our State and local 
funding partners will not only continue, but will increase, their 
current level of funding to Metro, and in addition will match the new 
Federal funding stream authorized in PRIIA. The PRIIA funding itself is 
essential not just to leverage these additional contributions, but to 
help us at Metro address our most critical needs, such as replacing our 
oldest rail cars and rehabilitating our oldest segments of track.
    I hope that I have made clear why this funding is important to 
Metro. I hope that it is also clear why this funding should be 
important to the Congress. The PRIIA funds will allow us to make 
urgently needed investments in the aging infrastructure of our system 
so that we can continue to provide Federal employees, residents of the 
metropolitan area, and visitors to the Nation's capital from across the 
Nation and around the world, with safe and reliable service. Annual 
appropriations under PRIIA are essential if we are to keep our system 
in a state of good repair.
    On behalf of Metro's Board of Directors, I thank you for your long 
history of support for Metro and your leadership in providing funding 
for the rehabilitation of Metro facilities and replacement of Metro 
equipment. It is no understatement to say that just as the Federal 
Government depends upon Metro, the future of Metro now depends upon the 
Federal Government and the funding authorized under PRIIA. Thank you 
for allowing me to testify today, and I look forward to answering the 
subcommittee's questions.

    Senator Mikulski. Mr. Sarles, before I call upon you, may I 
recognize Senator Cardin.
    Senator Cardin.

                STATEMENT OF SENATOR BENJAMIN L. CARDIN

    Senator Cardin. Thank you, Madam Chair. Senator Mikulski, 
thank you very much. You don't have to leave the table. I don't 
mind being associated with Metro, I'm a big supporter of the 
Transit Authority.
    As Senator Mikulski knows, we were interrupted because of 
some votes, and I apologize for being a few minutes late. But I 
would ask consent that my full statement and letter that I 
authored to President Obama in December be made part of the 
record.
    [The statement follows:]
            Prepared Statement of Senator Benjamin L. Cardin
    Thank you Chairman Murray and Ranking Member Bond for holding this 
hearing, and thank you Sen. Mikulski for inviting me to address the 
subcommittee about the Federal Government's increased commitment to 
invest in the Washington Metropolitan Area Transit Authority.
    Last year, the Greater Washington Congressional Delegation fought 
hard for the much needed transportation appropriation we secured for 
WMATA. In working with the members of this subcommittee and the full 
committee we were able to get it done and for that I am grateful. I 
appreciate that the appropriators recognize the important role Metro 
plays in the function of the Federal Government, including Congress.
    In December, I read a letter to President Obama urging him to 
include Metro in his budget. I ask for unanimous consent that a copy of 
this letter signed by Senators Mikulski, Webb, Warner and me be 
submitted for the record. I applaud and support the administration's 
request of $150 million in fiscal year 2011 for Metro.
    This demonstrates the President's commitment to smart growth, his 
recognition that it is in the Federal Government's interest to 
alleviate and not contribute to terrible traffic congestion in the 
Greater Washington Area--ranked the 2nd worst in the United States only 
behind Los Angeles, how integral a part of the region's transportation 
network Metro is and more broadly how transit fits into the Nation's 
transportation goals for the future. His budget request for Metro is in 
keeping with the October 9, 2009 Executive Order (No. 13514) on Federal 
Sustainability and the administration's efforts to reduce the Federal 
Government's carbon footprint, including its workforce.
    It also shows the administration's recognition of how important 
Metro and ``America's Subway'' system is to the function of the 
Government. We learned from this February's snowstorms that the Federal 
Government in fact cannot function without Metro. The Office of 
Personnel Management based its decision to shutdown the Federal 
Government on WMATA's inability to operate above-ground rail lines 
during the storms. This not only points out the Federal Government's 
reliance on Metro, but also highlights Metro's lack of resources to 
operate in weather conditions that other city transit systems like 
Chicago, New York or Boston could work through.
    Every work day, Metro provides tens of thousands of Federal 
employees rides to work. During peak ridership, more than 40 percent of 
riders on Metro are Federal employees and 10 percent of the overall 
ridership serves Congress and the Pentagon alone. Metrorail's alignment 
was designed to serve the Federal Government, with more than one-half 
of the system's stations located at or near Federal buildings. GSA has 
also established guidance that requires all new Federal facilities in 
the Greater Washington Area be Metro Proximate.
    I believe that the Federal Government has a clear financial 
interest in the operation of Metro. Likewise, I believe the Federal 
Government must play a greater role in ensuring the safety of Metro for 
its riders and employees.
    Safe and reliable operation of the Metro System is a top priority 
for me and the Greater Washington Area delegation.
    Revelations from the March NTSB hearing into the ongoing 
investigation of the June 22, 2009, fatal accident on the Red Line near 
Fort Totten, as well as discoveries made by the FTA through its Safety 
Audit of WMATA provided overwhelming evidence that Metro needs to look 
inward and make serious efforts to revise its approach to operating the 
system safely.
    Metro needs to work hard to establish a culture of safety that 
starts from the General Manager office and the Board of Directors on 
down through the various leaders of departments within WMATA and 
throughout the system's operators.
    We have heard directly from interim General Manager, Richard 
Sarles, and Board Chairman Peter Benjamin about the changes being made 
at Metro to improve safety. However, during our meeting last week in 
Senator Mikulski's office, on the afternoon of May 5, there was an 
emergency braking situation on the Red Line in Wheaton. The incident 
was not reported to the Tri-State Oversight Commission within 2 hours 
of the incident, as per WMATA's protocol, nor was the Board or General 
Manager immediately informed of the incident.
    I appreciate how forthcoming WMATA is with information surrounding 
this incident after the fact. I am pleased to know that even though the 
train operator may not have needed to take the actions he did, that he 
is not being punished for being cautious and causing the disruption. 
That said, this incident reveals that lapses in protocol are still an 
issue at WMATA.
    I am committed to working with my congressional colleagues, the 
Federal Transit Administration and the leadership at the Washington 
Metropolitan Transit Authority to make safety an operational priority 
at Metro and restore public confidence in the system. I want more than 
just verbal commitments to improve safety from WMATA and I want to see 
measurable results.
    If the Federal Government increases its investment in the system, 
it should also increase its oversight of operations and capital 
projects, so as to ensure that tax dollars are being well spent. I am 
confident that we will find a way forward through:
  --Increased Federal regulatory authority and oversight, as called for 
        by the FTA; and
  --Increased openness and transparency at WMATA.
    The FTA is prohibited by law from establishing national safety 
standards, requiring Federal inspections, or dictating operating 
practices. However, Senators Dodd, Menendez, Mikulski, and I introduced 
The Public Transportation Safety Program Act that will require the 
Transportation Secretary to establish and implement a comprehensive 
Public Transportation Safety program.
    This legislation will give the FTA the ability to take decisive 
actions such as conducting inspections, investigations, audits, 
examinations of (Federally funded) public transportation systems. This 
legislation establishes the type of safety enforcement authority for 
the FTA that already exists within the Federal Railroad 
Administration's authority over safety rules for commuter rail systems 
or the Federal Motor Carrier Safety Administration's ability to 
establish enforceable safety guidance for commercial truck drivers.
    It makes sense for public transit systems that receive Federal 
funding to meet Federal safety requirements set by the FTA. It makes 
even more sense to grant FTA a degree of Federal authority to establish 
safety guidance, particularly when it comes to WMATA, given Metro's 
unique relationship to the Federal Government.
    In July 2009, FTA Administrator Peter Rogoff, in testimony before 
the House Oversight and Government Reform Committee made special note 
of the fact that WMATA does not have a dedicated revenue stream, rather 
it relies heavily on Congressional Appropriations which may fluctuate 
from year to year.
    While the President's request for $150 million for Metro is an 
example of such special appropriations, it sends an important signal 
that the Federal Government recognizes the need to invest in Metro.
    Fortunately, Congress has taken an important step forward to remedy 
this situation. The Senate recently passed a new Metro Compact further 
advancing the final step in authorizing a 10 year $1.5 billion 
authorization providing Metro with a dedicated funding stream to ensure 
the safe and efficient operation of the system.
    For years, while Metro was a relatively new transit system, Metro 
was the epitome of safe, reliable and modern public transit. After 34 
years of operation, the results of placing disproportionate resources 
toward growing the system rather than attending to the growing backlog 
of repairs and maintenance needs of the existing infrastructure, 
Metro's age is taking its toll on the safe operation and function of 
the system.
    Metro must reevaluate its operational priorities. It is one thing 
to develop detailed plans to improve safety, and yet another to do what 
FTA Administrator Rogoff noted in the FTA's Safety audit, and that is 
to change the business culture at Metro to take safety seriously and 
execute these new safety measures. Metro provides a vital service to 
the Government and the region and I stand ready to help improve the 
system.
    I thank the chair and Senator Mikulski for inviting me here today. 
I urge the subcommittee to include the President's fiscal year 2011 
budget request for Metro in the fiscal year 2011 THUD Appropriations 
bill.
                                 ______
                                 
                                      United States Senate,
                                 Washington, DC, December 10, 2009.
The Honorable Barack Obama,
President of the United States,
The White House,
Washington, DC 20500.
    Dear Mr. President: As you make final preparation for the 
submission of your fiscal year 2011 budget, we request that you provide 
$150 million to the Washington Metropolitan Area Transportation 
Authority (WMATA), the full amount authorized in the National Capital 
Transportation Amendments Act, included as title VI of division B of 
Public Law 110-432. This is a vital issue to both the effective and 
efficient functioning of the Federal Government as well as to the 
entire Washington, DC metropolitan area. WMATA's compact jurisdictions 
are committed to providing 50 percent matching funding.
    For the first time, both the U.S. Senate and the U.S. House of 
Representatives have included $150 million in appropriations for WMATA. 
This is the first installment of funding to support a 10 year 
authorization for the Washington region's transit system. We urge that 
your administration's fiscal year 2011 budget build on Congress's 
effort to provide WMATA with essential funding to maintain and improve 
systems operation.
    Sometimes known as ``America's Subway,'' WMATA was created in 1966 
primarily to serve the Federal Government. Many Metrorail stations were 
built at the request of the Federal Government, and nearly one-half of 
all stations are located at Federal facilities. Federal employees 
comprise 40 percent of WMATA's peak ridership, and millions of others 
use the WMATA system (Metrorail, Metrobus, and WMATA's paratransit 
program: MetroAccess) each year to visit the Nation's Capital or 
conduct business with the Federal Government.
    WMATA is also a critical component for ensuring continuity of 
Federal Government operations during an emergency, and Federal recovery 
plans rely heavily on WMATA, which played a key role on September 11, 
2001. Another key indicator of how important the system is to the 
functioning of the Nation's capital, WMATA handled 1.5 million trips in 
a single day during this year's inauguration and was the most viable 
transportation option during this event. For all of these reasons, 
Congress saw fit to provide a unique authorization for WMATA, 
recognizing the special responsibility the Federal Government has to 
the Metro system.
    Before the enactment of this legislation last year, WMATA operated 
the only major transit system in the country without a source of 
dedicated revenue. The result has been a system with burgeoning needs 
and shrinking resources. Recent fatal tragedies on Metrorail underscore 
the need for infrastructure repair and maintenance to ensure the safe 
operation of this aging system.
    The $150 million in capital funding is for projects included in 
WMATA's Capital Improvement Program and approved by WMATA's Board of 
Directors. The funds will be used to maintain the transit system in a 
state of good repair, including vehicles, facilities, and 
infrastructure. All of the funds are for capital improvements and none 
may be used for operating expenses.
    The enabling legislation provides, for the first time, two seats on 
the Board of Directors for the Federal Government, represented by the 
General Services Administration. For this reason, we recommend that the 
funding be provided through the GSA portion of your budget submittal. 
This is a unique Federal obligation related to the operations of the 
Federal Government, and this seems an appropriate place in the budget 
to demonstrate that relationship clearly. Regardless of its placement 
in the budget, however, we urge you in the strongest terms to include 
this essential funding in your fiscal year 2011 submission. It is vital 
to the region and the Nation. We believe it warrants your strong 
support.
            Sincerely,
                                        Benjamin L. Cardin,
                                             United States Senator.
                                       Barbara A. Mikulski,
                                             United States Senator.
                                                  Jim Webb,
                                             United States Senator.
                                               Mark Warner,
                                             United States Senator.

    Senator Cardin. And Senator Mikulski, I want to thank you 
particularly for keeping our regional delegation focused on the 
importance of Metro, Metro funding, and the Federal 
Government's partnership with our Nation's subway system that 
is here and our transit system that is so important to the 
Federal Government.
    We fought hard, our regional delegation, last year to get 
$150 million put into the budget. It wasn't easy. And I want to 
thank the appropriators for making those funds available. It is 
critically important. And I strongly support President Obama's 
budget that adds $150 million this year to the Metro funding 
for fiscal year 2011. It is desperately needed. It is the right 
thing to do.
    This is the Nation's subway system. The Washington, DC area 
ranks second-worst in the United States as far as traffic 
congestion is concerned. This system is critically important to 
the operation of the region's Federal facilities. During peak 
ridership, more than 40 percent of the riders on Metro are 
Federal employees. Ten percent of the overall ridership serves 
Congress and the Pentagon. So this is how our employees get to 
work.
    And the Federal Government has a clear financial interest 
in the operation of Metro. Likewise, I believe the Federal 
Government must play a greater role in assuring the safety of 
the Metro system for its riders and employees, and there has 
been no stronger voice in the United States Congress on this 
issue than Senator Mikulski. I thank you very much for speaking 
out for the fact that, yes, we support the Federal Government's 
financial partnership with Metro, but we also believe that the 
Federal Government has a responsibility to make sure the system 
operates safely for the ridership, its patrons, and its 
employees.
    And the problems with safety continue. I know that the 
witnesses from Metro that you have before you have instituted 
changes, and there have been improvements made. But we need to 
change the culture of Metro so that safety is a priority, and 
that is a continuing process that will require greater 
oversight, and I urge us to set up a way that we can continue 
the oversight.
    May 5, there was an emergency braking situation on the Red 
Line in Wheaton, and fortunately the incident was handled by 
the operators and system controllers so as to avoid an 
accident, but some of the protocols were still not followed in 
regards to that particular episode. These missteps reinforce 
the need for stronger oversight on safety.
    I strongly support the legislation that Senator Mikulski 
has been involved with that would give the FTA the authority to 
set up safety standards for our transit system, so they can do 
it now for our rail. They can do it for the trucks. It seems to 
me that we should have the authority to set up Federal 
regulatory standards for our transit systems, and I would urge 
the Congress to take on that particular issue.
    The Senate recently passed the new Metro compact, further 
advancing the final steps of authorizing a 10-year $1.5 billion 
authorization for Metro with a dedicated funding system. That 
is critically important.
    But let me just point out one last point. This system is 34 
years old. It is an aged system. I have seen the crumbling 
platforms, and I tell you, I worry about the safety of Metro 
today. It needs maintenance funds. It needs attention. It needs 
to make sure that its current service areas are done in a safe 
way for its patrons and employees.
    I think, in the past, Metro has been divided as to whether 
to pay attention to its current system or seek expansion of its 
system. And we all believe that we have to expand the service 
that Metro provides. But the first priority needs to be to take 
care of the existing infrastructure of the current system, with 
its stations and with its cars and with the way that it manages 
the system for safety.
    And I would just urge this subcommittee in making the funds 
available. It is critically important the Federal Government 
live up to its commitment as a partner, but also to establish a 
way that we can be more actively involved as a partner with 
Metro in regards to the safety.
    And with that, Madam Chair, I thank you very much for 
allowing me to be here today.
    Senator Mikulski. Thank you, Senator Cardin.
    First of all, you have been a real champion of Metro 
funding, as mass transit, as well as MARC trains. In other 
words, safe, efficient mass movement of people. We want to 
thank you for your advocacy both on the Environment and Public 
Works Committee and on the Budget Committee. Like you, I join 
in wanting to continue the Federal partnership of $150 million, 
but I really think we have to be careful. I think we also have 
to be insistent on certain kinds of conditions and not give a 
blank check.
    So, thank you.
    Mr. Sarles, you have been one of the most patient people in 
the room, and we apologize. We thank you and, please, now go 
ahead and take as much time as you want to give us your views.
STATEMENT OF RICHARD SARLES, INTERIM GENERAL MANAGER
    Mr. Sarles. Thank you, Madam Chair, and thank you for the 
opportunity to testify today.
    As you know, Metro has submitted a request for $150 million 
in fiscal year 2011. And as the subcommittee considers that 
request, I feel that it is important for you to know what we 
are doing to improve the safety and reliability of our system.
    My written statement includes a detailed description of our 
action plan. So I will just briefly summarize a few key points. 
I will be at Metro until the board selects a new permanent 
general manager. I don't know how long that will be, but while 
I am here, I am taking a back-to-basics approach. I want to 
strengthen the agency so that I leave it in better shape for my 
successor.
    The audit that you asked the FTA to conduct was extremely 
helpful to us as we developed our safety action plan. And 
frankly, I welcome your watchdog role, especially in the area 
of safety.
    In response to that audit, I am working, first and 
foremost, on strengthening our safety program so that it is 
robust and proactive, not just reactive. We are hiring more 
good people and getting them the training that they need. We 
are developing an incident management system so that we can 
analyze trends and spot issues before they become major 
problems.
    We are also improving protections for our track workers by 
updating our procedures and our training program for those who 
work in and around the track area.
    I am also refocusing the agency on addressing our state of 
good repair needs. We have an aging system, and things are 
starting to break down more often. We need to do more today to 
keep our system in a state of good repair than we did when it 
was 5, 10, or even 20 years old.
    We are developing a new capital program, which will allow 
us to meet the state of good repair needs. Our State and local 
partners are committed to increasing their contribution to 
Metro, but to meet these needs, we must also continue to 
receive the funds authorized by Congress in the Passenger Rail 
Investment and Improvement Act. I thank this subcommittee for 
providing the first installment of that funding last year.
    These are the building blocks that will lead to a stronger 
organization for our employees and better service for our 
customers. It will take time to address all these issues fully, 
and we are constantly working on improving. For example, while 
the emergency braking at the Wheaton station 2 weeks ago did 
not involve an actual hazardous condition, we have learned from 
that experience and taken action to improve notification 
procedures to our operations control center and our oversight 
agencies.
    I believe that we are making progress, but you don't have 
to take my word for it. Next month, Metro will begin posting an 
online performance scorecard so that members of the public can 
track how well we are doing.

                           PREPARED STATEMENT

    Thank you for the opportunity to testify today and for your 
consideration of our request. I would be happy to answer any 
questions.
    [The statement follows:]
                  Prepared Statement of Richard Sarles
    Madam Chairman, Ranking Member Bond, and members of the 
subcommittee, thank you for the opportunity to testify before you 
today. I am Richard Sarles, General Manager of the Washington 
Metropolitan Area Transit Authority, known as WMATA or Metro.
    I began my service as Metro's General Manager over 1 month ago. My 
career in rail and public transportation has spanned 40 years, during 
which time I worked with the Port Authority of New York and New Jersey, 
Amtrak, and most recently, New Jersey Transit. I have used the Metro 
system many times, and have always been impressed by Metro's services 
and how well they are delivered. But Metro is no longer new. We have 
requested an appropriation of $150 million in Federal fiscal year 2011 
to help us address some of the challenges associated with our aging 
system. As you consider that request, I want to let you know what Metro 
is doing to move forward on improving our system's safety, reliability, 
and financial stability.
                                 safety
    As the subcommittee is aware, this region experienced an 
unprecedented tragedy on June 22 of last year, when two Metrorail 
trains collided on the Red Line north of the Fort Totten station. Nine 
people lost their lives and dozens of others were injured in an 
accident that has had ripple effects throughout the transit industry. 
The National Transportation Safety Board's (NTSB) investigation of the 
accident has focused on technological issues, not human error, as the 
key factor leading to the collision, and as a result, transit and rail 
providers across the country have been reexamining their track 
signaling systems for signs of the same potential failure that caused 
the June 22 accident.
    The NTSB's final report on the accident has not yet been issued, 
but Metro has already taken steps to improve safety on the rail system. 
We have been operating trains in manual mode since the accident, and we 
will continue to do so until the NTSB report is issued and any 
necessary modifications are completed. We have increased the frequency 
of computerized testing of track circuits, and we are holding the 
performance of those circuits to a higher standard than previously 
required. In addition, as recommended by the NTSB, we are working with 
a contractor to develop a real-time monitoring system which will 
provide an alert should a track circuit fail.
    In addition to the June 22 accident, Metro has experienced a number 
of other incidents over the past year that require us to re-assess the 
way that we go about ensuring the safety of our customers and 
employees. Our internal assessments and findings regarding safety have 
been supplemented by external agencies' reports, such as the March 2010 
audit of Metro's safety program by the Federal Transit Administration, 
requested by Senator Mikulski. These external reports have been and 
will be critically important in helping Metro identify where we need to 
improve with regard to safety. We have learned even from those 
incidents which were not hazardous in nature, such as the May 5 
emergency braking near the Wheaton station. Although there were no 
hazardous conditions present, we have taken action to improve reporting 
of such incidents to our operations control center and our oversight 
agencies.
    The following section describes a number of other actions that we 
have taken in recent months to address both internal and external 
findings in the areas of staffing, communications, track worker 
protection, and rail operations.
Staffing
    The FTA audit and other assessments have identified lack of 
sufficient safety staff and expertise as an issue at Metro. To address 
that issue, Metro has hired a new Chief Safety Officer, James 
Dougherty, who began his duties on April 19. Mr. Dougherty brings 25 
years of experience in transit safety, occupational safety and health, 
industrial hygiene and environmental protection, and he will report 
directly to me. In addition, we have filled 6 of 12 new positions in 
the safety department, and we expect to fill the remaining vacancies 
within 60 days. These new positions will help us to effectively 
investigate incidents/accidents, review and document safety policies 
and procedures, ensure safety protocols are in place and implemented, 
and analyze safety trends. We have also arranged for needed training 
for our safety personnel with the Transportation Safety Institute, an 
arm of the U.S. Department of Transportation, with seven courses 
scheduled through September.
Communications
    Lack of communications across and within departments has also been 
cited in various reports as a problem at Metro. We have recently begun 
several new communications initiatives. For example, to improve 
communication between the Safety Department and operational personnel, 
we now have safety officers assigned to each bus and rail division. 
These safety officers participate in regular meetings of the front-line 
staff in their division, as well as interacting on a daily basis with 
operations employees on safety-related matters.
    In addition, my predecessor held 6 ``Safety Action Report Out'' 
meetings with 60 front-line superintendents to increase their awareness 
and accountability regarding safety. I intend to continue those 
meetings on a regular basis. We have also established a cross-
departmental Safety Action Team tasked with finding ways to create a 
safer organization. The Team's first initiative is designed to further 
improve communications with front-line employees to ensure that safety-
related information, as well as other messages, reaches all employees 
regardless of their work location.
Track Worker Protection
    Employees who work on and around our track areas are exposed to 
dangerous situations each day they come to work. Protection of these 
workers must be robust and effective. Metro is committed to improving 
our current practices and has established a cross-departmental Roadway 
Worker Protection Work Group which includes representatives from 
several Metro departments, union representatives, and representatives 
from FTA and TOC. This group has drafted a new roadway worker 
protection manual which has been submitted to the TOC for review. The 
group is also in the process of developing a new roadway worker 
training plan, and will also test and evaluate new technologies and 
processes for use in the Metro system; these activities are expected to 
be complete by the Fall of 2010.
    Metro's track environment shares certain characteristics with other 
transit and rail systems, and we have reached out to our peers to learn 
from them and share best practices. Metro conducted a workshop in 
January with peer transit agencies, FTA, TOC, and union 
representatives, and convened a roundtable discussion in April with the 
Federal Railroad Administration and inter-city rail operators. The 
results of these discussions are reflected in the new draft manual and 
will be included in the training regimen being developed by the Roadway 
Worker Protection Work Group.
Rail Operations
    In addition to the operational changes implemented in response to 
the June 22 accident, discussed above, Metro is continuing to respond 
to earlier NTSB recommendations. We expect to award a contract in the 
near future to begin building the cars to replace our oldest vehicles, 
the 1000 series cars, as the NTSB has recommended. In addition, we are 
continuing to add rollback protection for rail cars operating in manual 
mode, another NTSB recommendation. About one-half of our fleet 
currently has such protection, and we are working to install it on the 
remaining cars with completion anticipated by the end of calendar year 
2012.
Six-month Action Plan--Safety
    While we have made progress with regard to safety, we still have 
work to do. We have established the following safety-related 
priorities:
  --Fill Remaining Safety Department Vacancies and Increase Training.--
        Specifically, we must continue to have front-line safety 
        briefings while we develop more effective right-of-way training 
        and identify other needed training for front-line staff. In 
        addition, we have begun labor relations training for 
        supervisors of represented employees, re-emphasizing the 
        supervisors' role in safety; we intend to complete that 
        training by the end of 2010.
  --Continue Accelerated Close-out of Open Safety-related Audit 
        Findings.--With the approval of the TOC, Metro develops 
        corrective action plans (CAPs) in response to findings from 
        both external and internal audits and investigations. Metro has 
        closed 190 CAPs since 2007, with the rate of closure increasing 
        significantly in recent months. Currently 85 CAPs remain open 
        (including CAPs that were recently added in response to the 
        TOC's Roadway Worker Protection study and internal safety 
        audits). I have communicated to Metro staff that continuing to 
        close CAPs promptly is a top priority. I am particularly 
        focused on responding to the recommendations in the FTA audit; 
        we submitted a CAP for that audit to FTA on April 29. (Please 
        see attachment No. 1 for details.)
  --Develop Incident Tracking and Safety Management Reporting System.--
        We are taking advantage of improvements in technology to 
        develop a web-based tool to allow for communication of safety-
        related information and tracking across departments. 
        Development is expected to be complete by the end of August 
        2010.
  --Encourage Near-miss Reporting, Including Anonymous Hotline and 
        Strengthened Whistleblower Protection.--David Gunn's report 
        cited Metro for having a ``shoot-the-messenger'' culture. I am 
        taking steps to end that perception. I have informed all 
        employees of the existence of a safety hotline and safety e-
        mail address through which they can report safety concerns, 
        anonymously if desired. In addition, we are updating Metro's 
        whistleblower protection policy to encourage employees to raise 
        safety-related concerns.
  --Complete New Right-of-way Worker Protection Manual and Revisions to 
        Metrorail Safety Rules and Procedures Handbook (MSRPH).--When 
        rules are outdated or unclear, they tend to be ignored. By Fall 
        2010 we intend to complete work on a new set of rules for 
        right-of-way workers as well as an updated MSRPH, with rules 
        and procedures that are clear, up-to-date, and effective.
  --Complete Self-assessment of Safety-related Internal Controls and 
        Initiate Thorough Assessment of Safety Culture.--We intend to 
        complete further self-assessments in safety-related areas, the 
        first of which is focused on internal controls. In addition, we 
        have contacted the U.S. Department of Transportation, the AFL-
        CIO, and the American Public Transportation Association to seek 
        their assistance in assembling a team of experts not only to 
        review Metro's safety culture, but also to recommend specific 
        measures to improve that culture and to provide assistance in 
        implementing those recommendations. We intend to initiate this 
        review by Fall 2010, while recognizing that organizational 
        culture change is a long-term process.
                          service reliability
    According to the Washington Post, ``most riders give the (Metro) 
system high marks for comfort, reliability and generally the ability to 
take them where they want to go.'' (``In Survey, Metro Still Gets High 
Marks after a Year of Low Points,'' April 5, 2010). Still, we know that 
we need to do better. The quality of our customers' experience is the 
key to the continued success of our system. We are taking steps to 
improve the on-time performance of all of our modes--Metrorail, 
Metrobus, and MetroAccess--as well as the availability of our elevators 
and escalators which have a very direct impact on the quality of our 
customers' trips.
    For Metrorail, we have evaluated ways of improving service 
reliability through schedule adjustments and are preparing to implement 
the first adjustment on the Red Line. We have also implemented revised 
30-, 60-, and 90-day training performance reviews for newly certified 
train operators to ensure that they are meeting our standards for safe 
operations and customer service and to provide us with an on-going 
source of review regarding the effectiveness of our training programs.
    For Metrobus, we are in the process of replacing 148 older buses, 
with deliveries between March and September 2010. With newer vehicles 
we expect fewer equipment failures, leading to improved service 
delivery. We have also reorganized our bus transportation division, 
retrained operators and supervisors, and increased supervision of 
street operations to better monitor and address service reliability 
issues. We have implemented NextBus, which provides customers with 
real-time bus arrival information by phone or online, and have created 
a new online service disruption notification for bus customers. For 
MetroAccess drivers, we have developed a new training program and 
installed Drive-Cam in MetroAccess vehicles to record incidents for 
investigation and training purposes.
    With regard to elevators and escalators, we are consolidating our 
command and maintenance centers to eliminate reporting layers and 
improve accountability, a process which we expect to have fully 
implemented by the end of June 2010. Also by June, we intend to have 
restructured our technicians' shifts to create rapid response teams 
with responsibility for maintenance and repair in defined geographic 
areas.
Six-month Action Plan--Service Reliability
    I have established the following priorities regarding service 
reliability:
  --Increase Training for Front-line Employees and Supervisors.--
        Specifically, we intend to provide additional training to all 
        station managers with a renewed emphasis on customer service, 
        as well as complete training that we have already begun related 
        to the reorganization of our bus department, designed to 
        improve management of operators, reduce accidents, and improve 
        service.
  --Create Transparent Performance Tracking and Reporting Systems.--New 
        performance measurement tools are currently under development, 
        including web-based dashboards, a monthly vital signs report of 
        key performance indicators, and an annual performance report to 
        assess what is working well, what is not, and why. By the end 
        of June 2010 we expect to release many of these new tools 
        publicly to foster increased accountability and transparency.
  --Revise Inspection and Maintenance Procedures to Accommodate Changes 
        in Operations.--As in the area of safety, our rules and 
        procedures for inspections and maintenance need to be clear and 
        relevant for our current operating environment. With changes in 
        place related to manual operation and restricted speeds, our 
        new vertical transportation command center, etc., we must start 
        revising our related procedures accordingly.
  --Pilot Metrorail Schedule Adjustment on Red Line.--As I mentioned 
        earlier, we intend to adjust schedules on the Red Line to 
        improve service reliability and the quality of the customers' 
        experience. The new schedules will reflect reality and allow 
        for more time for customers to board and alight the trains at 
        our busiest stations, and will involve more 8-car trains 
        running to the ends of the line, which will maintain our 
        passenger throughput capacity for the Red Line as a whole.
  --Initiate External Assessment of Elevator/Escalator Maintenance and 
        Repair Programs.--We intend to contract with outside experts to 
        conduct a review of these programs in order to assess their 
        efficiency and effectiveness and make recommendations for 
        additional improvements.
  --Continually Re-emphasize Safety and State of Good Repair as Top 
        Priorities.--Maintenance of vehicles, track, structures, 
        signals, and other infrastructure in a state of good repair has 
        a direct impact on the safety and reliability of the Metro 
        system, as it does for every transit agency in the country. If 
        the condition of the Metro system is allowed to degenerate 
        further, issues related to service reliability will continue to 
        increase. The most effective action we can take to improve 
        reliability is to improve the physical condition of our system.
                          financial stability
    Now let me turn to a topic which is integrally related to our 
ability to improve service reliability--Metro's budget and current 
funding constraints. Metro's proposed fiscal year 2011 budget totals 
$2.1 billion. That total is composed of Metro's operating budget, which 
supports the daily delivery of transit service (including personnel 
costs, fuel and propulsion costs, etc.), and the capital budget, which 
funds investments in the vehicles, equipment, facilities, and 
infrastructure of the transit system. Sources of funding for those 
needs include State and local funds; Federal funds (primarily for 
capital costs); passenger fares and parking revenues, and other sources 
(such as advertising and fiber optic revenue). Passenger fares cover 
about one-half of the cost of Metro's operations; broken out by mode, 
they cover more than 70 percent of Metrorail operations, about 30 
percent of Metrobus operations, and 5 percent of MetroAccess 
operations.
            Operating Budget
    Fiscal year 2011 is likely the most difficult year, financially 
speaking, that Metro has ever had to face. The economic slowdown is 
having a continued impact on Metro, as it is across the country. For 
the transit industry as a whole, the economic slowdown has meant that 
ridership and revenue are down, while costs continue to go up.
    Despite the encouraging ridership numbers that Metro has 
experienced in the last few weeks, Metrorail ridership for fiscal year 
2011 is projected to be just 2 percent above the fiscal year 2009 
levels, and on Metrobus, ridership growth over 2009 levels is only 
projected to be 1.5 percent. These projections are primarily due to 
continued high unemployment in the region combined with reduced 
spending by consumers. Lower Metrorail ridership has resulted in less 
revenue coming in from Metro parking facilities as well. Major cost 
drivers in the fiscal year 2011 operating budget include the rise in 
healthcare cost (which is in line with national trends), market losses 
in pension values, the increasing demand for MetroAccess service, and 
liability insurance and claims associated with the June 22 accident.
    The imbalance between projected revenues and expenses created a 
$189 million gap in our fiscal year 2011 operating budget, if 
jurisdictional subsidies (which cover about one-half of our operating 
costs) were held constant at fiscal year 2010 levels. In order to close 
that gap, I have proposed a budget that includes further layoffs, fare 
increases, some service reductions, and an increase in jurisdictional 
subsidies. Metro's Board is currently considering that proposed budget. 
Without knowing what they will decide, it is fair to say that balancing 
Metro's fiscal year 2011 budget will require hard choices. When we 
raise fares or reduce service, we have a direct impact on the people we 
serve every day, on their ability to get to jobs, school, medical 
services, and recreational opportunities. The economic downturn has 
affected everyone in this Nation, and unfortunately Metro is not 
immune.
            Capital Program
    Over the last 6 years, Metro has funded its capital program through 
a multi-year agreement with our jurisdictional partners, known as Metro 
Matters, which expires June 30, 2010. The stable funding stream 
provided by Metro Matters allowed us to, among other things, purchase 
667 new Metrobuses to reduce the age of our fleet from over 10 years to 
under 8 years; and purchase 122 Metrorail cars, expand rail yard 
maintenance and storage facilities, and upgrade power systems to run 8-
car trains.
    Board Chairman Peter Benjamin's testimony addresses our capital 
needs, and I simply want to reiterate his point that the funding Metro 
has requested from this subcommittee in Federal fiscal year 2011 is 
urgently needed to allow us to maintain the Metro system in a state of 
good repair. (Please see attached spending plan.) However, due in part 
to national economic conditions and in part to declining revenues in 
the Federal Highway Trust Fund, both Federal and State/local sources of 
funding for capital projects are severely constrained. Even with the 
new Federal funding authorization and the associated State/local match, 
these constraints have required Metro to limit our capital investment 
for the next 6 years to only the most critical, ``must-do'' safety and 
system maintenance projects. ``Must-do'' projects include, for example, 
replacement of the 1000 series rail cars; replacement of our oldest 
buses; rehabilitation of the oldest segment of our rail line, and 
replacement and/or rehabilitation of decades-old bus facilities. ``Must 
do'' projects do not include other investments that should be made, 
such as investments to address crowding (more frequent bus service; 
more 8-car trains); more elevators/escalators in core stations; and 
system and fleet expansion to accommodate projected growth in demand 
over the next several decades.
Six-month Action Plan--Budget
    By Fall 2010, we intend to accomplish the following objectives 
related to Metro's budget:
  --Implement Board-approved Fiscal Year 2011 Budget.--As I have 
        discussed, the budget will include job cuts and likely some 
        combination of fare increases and service reductions in order 
        to fill the $189 million projected gap. Successful 
        implementation of such changes will require timely and 
        effective customer communication as well as operational changes 
        such as reprogramming of farecard readers.
  --Manage Transition From Metro Matters Capital Funding Agreement to 
        Next Capital Funding Agreement, Currently Being Negotiated.--I 
        want to note that the National Transportation Safety Board is 
        expected to issue its final report on the June 22, 2009, Red 
        Line collision shortly before or during fiscal year 2011, and 
        that report may contain recommendations that will have a cost 
        associated with their implementation. Metro is committed to 
        responding to those recommendations and that response may 
        affect our ability to undertake some of the projects that have 
        been planned for the next 6 years, absent additional funding.
  --Initiate a Discussion With Regional and Federal Stakeholders on 
        Metro's Long-term Fiscal Outlook to Identify Both Challenges 
        and Solutions.--The basic challenge is this: the Metro system 
        must be brought into a state of good repair. Unless there is a 
        renewed commitment to this goal, the system will continue to 
        degrade.
                               conclusion
    Madam Chairman, in the Fall of this year, I intend to deliver to 
Metro's Board of Directors an interim performance assessment, along 
with recommendations for further improvement, in each of the areas I 
addressed above: safety, service reliability, and budget. But you do 
not have to wait until then to track our progress. Metro is developing 
products that will allow the public to see how we are doing on a more 
frequent basis. We expect to launch shortly a monthly ``Vital Signs'' 
report, which will initially track operational performance and identify 
trends, with the goal of expanding the range of performance metrics to 
other areas in the future. We also plan to issue an annual performance 
report, beginning this September. Metro is committed to improving 
transparency and communication with our customers and other 
stakeholders, including Congress.
    Thank you for the opportunity to testify today. I greatly 
appreciate your leadership on these issues, and I hope that you will 
favorably consider our fiscal year 2011 appropriations request. I would 
be happy to respond to any questions.

 ATTACHMENT NO. 1.--WMATA RESPONSE TO RECOMMENDATIONS IN THE MARCH 4, 2010 FEDERAL TRANSIT ADMINISTRATION SAFETY
                                                      AUDIT
----------------------------------------------------------------------------------------------------------------
            Recommendation                   Actions Taken              Next Steps            Completion Date
----------------------------------------------------------------------------------------------------------------
No. 1. Conduct assessment to identify   Developed statement of   Initiate and award       Final Report,
 resources and expertise necessary for   work for contractor      contract, with Board     including identified
 Safety Dept. to carry out activities    support.                 approval, received       needs and
 specified in System Safety Program                               April 22, 2010.          recommendations by
 Plan and Safety Rules and Procedures                                                      end of August 2010.
 Manual.
No. 2. Use results of assessment to     Included in statement    Initiate and award       Issuance of Safety
 ensure adequate staffing levels and     of work under No. 1.     contract, with Board     Dept. staffing &
 expertise within Safety Department.                              approval, received       recruitment plan by
                                                                  April 22, 2010.          end of August 2010.
No. 3. Increase Safety Dept.'s access   Established              Review process for       Formalize process by
 to operating & maintenance              Interdepartmental        information-sharing      end of August 2010.
 information and reports to ensure       Safety Working Group,    and quality of
 this information is being analyzed      now receiving monthly    information shared.
 for potential impacts on safety.        reports on operations/
                                         maintenance.
No. 4. Develop internal process to      Initiated development    Develop process for      Complete development
 require communication of safety-        of web-based  tool.      identifying and          by end of August
 related info. across depts.,                                     evaluating maintenance-  2010.
 including impacts of budget                                      related safety issues.
 reductions & resource constraints on
 performance of safety-related
 maintenance activities/requirements.
No. 5. Define and implement the         Chief Safety Officer     Continue weekly CSO      Completed by end of
 process for the top Safety Department   (CSO) now reports        meetings and reports     April 2010.
 position to communicate safety          directly to General      to GM; revise System
 priorities to the GM in a timely and    Manager.                 Safety Program Plan to
 consistent manner.                                               reflect relationship.
No. 6. Identify technical skills        Included in statement    Initiate and award       Contractor to issue
 required to perform system-wide         of work under No. 1.     contract, with Board     needs assessment &
 hazard analysis; if needed, provide                              approval.                training plan by end
 training as soon as practicable.                                                          of August 2010.
No. 7. Update the System Safety         Interdepartmental        Confirm design of new    Completed by end of
 Program Plan to develop a hazard        Safety Working Group     process with             September 2010.
 management process that ensures all     has met to design a      contractor support.
 departments participate in an on-       new process.
 going manner.
No. 8. Institute process to ensure      Outreach to peer         Continue outreach to     Metrorail Safety Rules
 changes in operating rules are          transit agencies for     peer agencies and        and Procedures
 analyzed for safety impacts before      model forms and          consultation with        Handbook revisions
 system-wide implementation.             processes has begun.     union; revise rule       completed by end of
                                                                  book.                    September 2010.
No. 9. Finalize right-of-way            Roadway Worker           Finalize new manual;     Roll out of new
 protection rules; develop training to   Protection Working       finalize new training    training program in
 implement new rules. Ensure all ROW     Group established; new   program.                 October 2010.
 employees & contractors receive         manual has been
 training before accessing ROW.          drafted; workshop and
                                         roundtable held.
No. 10. Implement configuration         Included in statement    Initiate and award       Create action plan &
 management program described in         of work under No. 1.     contract, with Board     training program by
 System Safety Program Plan.                                      approvalreceived April   end of September
                                                                  22, 2010.                2010.
----------------------------------------------------------------------------------------------------------------


      WMATA RESPONSE TO FTA FINDINGS OF THE TOC THAT RELATE TO WMATA IN THE MARCH 4, 2010 FTA SAFETY AUDIT
----------------------------------------------------------------------------------------------------------------
            Recommendation                   Actions Taken              Next Steps            Completion Date
----------------------------------------------------------------------------------------------------------------
Finding No. 1.--Require WMATA to        The update of both the   Seek permission to       MSRPH revisions to be
 complete a timely, thorough, and        SSPP and WMATA's         Initiate and award       completed by the end
 competent review and update of          Safety Rules and         contract with WMATA      of September 2010.
 WMATA's Safety Rules and Procedures     Procedures Manual will   Board approval.
 Manual.                                 be included as part of  Board Approval received
                                         the contractor SOW for   April 22, 2010..
                                         the Safety Assessment
                                         and Hazard Management
                                         Program.
Finding No. 2.--Require WMATA to        The Safety Assessment    Seek permission to       Completed by the end
 develop (and TOC to review and          and Action Plan will     Initiate and award       of August 2010.
 approve) an internal WMATA safety       ensure that we have      contract with WMATA
 audit recovery plan for calendar year   personnel skilled in     Board approval.
 2010 and calendar year 2011.            auditing in the Safety  Board Approval received
                                         Department.              April 22, 2010..
                                        We also will receive
                                         contractor support in
                                         reviewing and updating
                                         our existing
                                         checklists and
                                         procedures.
Finding No. 3.--Require WMATA to        We are working closely    In the May 4, 2010      The goal is to
 develop a recovery plan to complete     with TOC to address      submission, both TOC     completed 90 percent
 all open accident investigations        this finding and have    and WMATA will report    by the end of
 following procedures established in     made considerable        that a recovery plan     September 2010.
 TOC's Program Standard, WMATA's         progress.                of closing at least
 System Safety Program Plan and                                   ten open accidents
 WMATA's Accident Investigation                                   investigations per
 Procedure.                                                       month is accomplished.
Finding No. 4.--Work with WMATA to      The contractor SOW for   Seek permission to       Completed by the end
 ensure that there is a process in       the hazard management    Initiate and award       of August 2010.
 place for evaluating Corrective         work will also address   contract with WMATA
 Action Plan (CAP) alternatives that     this issue.              Board approval.
 may be necessary as a result of                                 Board Approval received
 capital and operating program                                    April 22, 2010..
 resource limitations.
Finding No. 5.--Require WMATA to        Interdepartmental        Seek permission to       Create action plan &
 develop and implement a comprehensive   Safety Working Group     Initiate and award       training program by
 and system-wide hazard management       to design new process    contract with WMATA      end of September
 program (as specified in 49 CFR part    has taken place and      Board approval.          2010.
 659.31).                                with contractor         Board Approval received
                                         support and will:        April 22, 2010..
                                         Integrate into web-
                                         based tool; Integrate
                                         into Internal Safety
                                         Audit process and
                                         Quality Assurance (QA)
                                         process; and Integrate
                                         into day-to-day
                                         activities.
----------------------------------------------------------------------------------------------------------------


   WASHINGTON METROPOLITIAN TRANSIT AUTHORITY (WMATA) PROPOSED PRIIA (DEDICATED FUNDS) PLAN AS OF MAY 17, 2010
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                                 Budget
                                                                                       -------------------------
  CIP              Project Name                       Project Description                 Federal      Federal
                                                                                        Fiscal Year  Fiscal Year
                                                                                            2010         2011
----------------------------------------------------------------------------------------------------------------
        RAIL CAR FLEET REPLACEMENT
         AND REHABILITATION:
 CIP057     1000 Series Rail Car       This project will design and purchase 300             79.3         20.5
             Replacement                7000 Series railcars, which will replace all
                                        1000 Series railcars that were purchased
                                        between 1974 and 1978. This project is one
                                        component of a long-term fleet plan to avoid
                                        repetitive developmental cost associated
                                        with new car design and procurement. The
                                        replacement of the 1000 Series with the 7000
                                        Series will improve reliability, reduce
                                        maintenance and operating costs and
                                        incorporate technology and enhancements of
                                        newly designed railcars.
 CIP063     Rail Rehabilitation        This project will procure major repairable            12.4         12.5
             Program                    railcar components tosupport the overhaul of
                                        essential systems in the fleet. To maintain
                                        astate of good performance, major railcar
                                        components must berefurbished or replaced on
                                        a regular basis. These components includebut
                                        are not limited to wheels, trucks, brake
                                        systems, HVAC, and traction motors.
                                        Approximately 225 railcars, or 20 percent of
                                        the fleet, will receive major overhauls
                                        funded through this project.
 CIP067     Rail Car Safety and        This project will perform engineering                 12.1          2.5
             Reliability Enhancements   analysis, diagnosis, testing and resolution
                                        of safety, maintenance and operational
                                        issues relating to the railcar fleet and its
                                        interaction with track work, automatic train
                                        control, communication, and power systems.
                                        The project work will resolve compatibility
                                        issues across the multiple series of
                                        railcars andinfrastructure related to
                                        changes in technology and
                                        components.Examples of specific issues to be
                                        resolved are emergency exterior
                                        doorreleases, wrong side door openings, and
                                        car roll back.
 CIP071     Test Track and Commission  This project will procure, design and                  5.2         17.5
             Facility                   construct a test track andcommissioning
                                        facility that will be utilized for ongoing
                                        engineeringanalysis and enhancements to the
                                        fleet, as well as acceptance testing of new
                                        railcar procurements and will be in constant
                                        use. A dedicatedfacility will allow testing
                                        to be done and not impact night-time
                                        maintenance activities.
                                                                                     ---------------------------
              Total                    .............................................        108.9         53.0
                                                                                     ===========================
        TRACK SAFETY IMPROVEMENTS:
 CIP018     Track Welding Program      This project will provide for the welding of           1.5          2.7
                                        approximately 500 openrunning rail joints
                                        throughout the Metrorail system and to
                                        purchaseflash butt welding kits. The track
                                        welding program will improve theelectrical
                                        conductivity of the rail, eliminate joint
                                        defects, reduce noiseand wear, reduce
                                        maintenance and inspection costs, and
                                        eliminatecross tie fires.
 CIP019     Track Floating Slab        This project will prevent services delays and          1.7          1.3
             Rehabilitation             speed restrictions due to differential
                                        settlement of the track structure and
                                        reduces noise andvibration to the
                                        surrounding building and structures by
                                        replacing failedisolation pads and restoring
                                        the track structure to the proper elevation.
 CIP020     Replacement of Rail Track  This project will procure and install 3,000            1.0          1.1
             Signage                    markers and 500 safety signs to replace old,
                                        illegible rail track graphic signs and
                                        various other signs indicating locations and
                                        warnings to employees, emergency responders,
                                        and the general public. Track graphics are
                                        essential for safe operations and emergency
                                        responses. Many signs throughout the
                                        Metrorail System are approximately 30 years
                                        old. Some of these signs require upgrading
                                        because they are damaged, deteriorated, or
                                        obsolete.
 CIP021     Track Pad/Shock Absorber   This project will maintain the integrity of            4.3          2.1
             Rehabilitation             the track structure by rehabilitating 7,000
                                        linear feet of grout pads on Rhode Island
                                        and Minnesota Avenue Metrorail Station
                                        Aerials. Grout/plinth pads (concrete pads)
                                        located below the track provide elevation
                                        and support for the track and track
                                        fasteners. They are replaced as needed to
                                        restore the track structure to the proper
                                        elevation. Improper elevation can result in
                                        damage to the car's third rail collector
                                        shoes and the vibrations can potentially
                                        lead to structural cracking in the
                                        surrounding buildings and structures.
 CIP022     Track Structural           This project will be utilized for the                  2.3          1.5
             Rehabilitation             rehabilitation of structural components and
                                        to restore the track structures, such as
                                        elevated platforms, bridges, and retaining
                                        walls to their designed load carrying
                                        capacity. These rehabilitations are
                                        critical, as the loss of one of these
                                        structures could result in the functional
                                        loss of an entire Metrorail line segment.
                                        The rehabilitation work includes the anchor
                                        bolts of 65 bridge piers on Minnesota Avenue
                                        Aerial and additional anchor bolts at
                                        Grosvenor and I-495. One down and under
                                        crane for underbridge inspections and
                                        rehabilitation will be procured.
 CIP023     Third Rail Rehabilitation  This project will replace the original third   ...........          5.5
                                        rail (5 miles annually) with the composite
                                        third rail. Original third rails have become
                                        worn throughout the Metrorail system. New
                                        aluminum and steel composite third rails
                                        will provide less resistance for eight car
                                        trains and allow trains to run more
                                        efficiently. This project will result in
                                        maintained tracks and fewer train delays.
 CIP024     Track Rehabilitation       This project will be utilized for the                 44.4         33.3
                                        procurement of material and specialized
                                        equipment to facilitate the removal and
                                        installation of the track and switch panels,
                                        which prevents service delays and speed
                                        restrictions. Track components (which
                                        include running rail, cross ties, direct
                                        fixation fasteners, third rail insulators,
                                        and turnouts) require replacement when,
                                        based on industry standards, they become
                                        worn or unserviceable due to deterioration,
                                        excessive wear, or defects. No. 8 turnouts
                                        will be upgraded from unguarded to guarded
                                        turnouts based on National Transportation
                                        Safety Board recommendations.
 CIP027     Switch Machine             This project will improve the safety and               0.9          1.0
             Rehabilitation Project     reliability of the interlocking track
                                        structure by replacing 20 switch machines
                                        throughout the Metrorail Systems. Switch
                                        machines have a normal life expectancy of 10
                                        years; all the switches to be replaced have
                                        been in service over 10 years.
 CIP133     Wayside Work Equipment     This project is for the installation of a              4.1          3.1
                                        safety signaling system at rail portals and
                                        other locations to alert personnel to
                                        approaching trains. This project will
                                        provide for enhanced safety for customers
                                        and WMATA personnel.
                                                                                     ---------------------------
              Total                    .............................................         60.2         51.5
                                                                                     ===========================
        TRACK EQUIPMENT:
 CIP025     Track Maintenance          This project is for the rehabilitation and            17.3         20.7
             Equipment                  replacement of heavy-duty track equipment.
                                        Track maintenance equipment is essential to
                                        deliver quality service and for the safe and
                                        efficient execution of the track
                                        rehabilitation work. Timely rehabilitation
                                        and replacement of four selfpropelled prime
                                        movers will ensure equipment reliability,
                                        reduce the probability of delays due to
                                        equipment breakdowns, and allow for
                                        efficient use of the right-of-way track time.
 CIP066     Rail Shop Repair           This project funds the replacement of rail             2.2          4.2
             Equipment                  shop equipment that has reached the end of
                                        its useful life. Purchases will include
                                        approximately 125 pieces maintenance
                                        equipment, 48 pieces shop test equipment,
                                        and 15 pieces shop machine equipment. Some
                                        examples of equipment to be purchased are
                                        overhead cranes, rail train lifts, hoists,
                                        industrial shop air compressors, service
                                        elevators, hoisting mechanisms, wheel truing
                                        machines, and electrical controls.
 CIP089     Track Fasteners            This project is for the replacement of track           2.1          2.1
                                        fasteners. Deteriorated track fasteners
                                        cause stray current and have been found to
                                        cause fires in the system. Track fasteners
                                        are an integral structural component of the
                                        track system that needs to be replaced
                                        periodically. Approximately 15,000 track
                                        fasteners will be replaced on the Red Line
                                        with thesefunds.
                                                                                     ---------------------------
              Total                    .............................................         21.5         27.0
                                                                                     ===========================
        MAJOR RAIL LINE SEGMENT
         OVERHAUL:
 CIP110     Rail Rehabilitation Tier   This project encompasses engineering and              34.5         60.6
             1.--National Airport to    design to begin rail line segment
             Stadium Armory             rehabilitation of the Orange/Blue/Yellow
                                        Lines from National Airport to New
                                        Carrollton which includes 23 Stations with a
                                        route mileage of approximately 18.7 miles.
                                        Stations scheduled for rehabilitation were
                                        completed and put into service between 1977
                                        and 1978. Work to be initiated includes but
                                        is not limited to traction power, automatic
                                        train control and communication upgrades,
                                        track fastener replacement, tunnel
                                        ventilation, air conditioners, replacing
                                        suspended ceiling tiles, canopy roof
                                        replacements, platform rehabilitation
                                        lighting, public address, and CCTV system
                                        upgrades.
 CIP116     Rail Yard Facility         This project is a rail yard rehabilitation of  ...........         24.8
             Repairs Tier 1.--          Alexandria, Brentwood and New Carrollton
             Alexandria, Brentwood      Rail Yards that were put into service
             and New Carrollton         between 1976 and 1983. The contract will
                                        include items from the Inventory Database
                                        and other items identified by rail
                                        operations and maintenance, security and
                                        environmental to enhance operations and
                                        maintenance activities and provide a better
                                        work environment. Work will include all
                                        systems and infrastructure to increase
                                        overall efficiency.
                                                                                     ---------------------------
              Total                    .............................................         34.5         85.4
                                                                                     ===========================
        RAIL PREVENTIVE MAINTENANCE:
 CIP125     Rail Preventive            This project is for preventive maintenance            40.9         20.8
             Maintenance                and related purchases for rail cars.
                                        Activities will include regularly scheduled
                                        maintenance of railcar components and
                                        systems at scheduled duty-cycle intervals.
                                        Purchases will include brake parts, truck
                                        parts, propulsion parts and other parts
                                        necessary for maintaining functionality of
                                        rail car features.
                                                                                     ===========================
        TRACK SIGNAL IMPROVEMENTS:
 CIP135     Train Control Signal       This project funds the initial engineering             1.0         10.3
                                        support for analysis of the train control
                                        signaling system in an effort to improve the
                                        system.
 CIP136     FCC Radio Frequency        This project will meet the new FCC ``narrow            0.2          1.0
             Communication Changes      banding'' requirement that affects the
                                        agency's UHF radio system. Planned
                                        activities include specification
                                        development, engineering, prototype testing,
                                        and project management. The primary impact
                                        is to the infrastructure equipment (as
                                        opposed to the subscriber equipment--
                                        handheld and mobile radios).
                                                                                     ---------------------------
              Total                    .............................................          1.2         11.3
                                                                                     ===========================
        NTSB RECOMMENDATIONS:
 CIP139     NTSB Recommendations       This project will allow Metro to implement            10.3         10.3
                                        any forthcoming NTSB recommendations as a
                                        result of the ongoing accident investigation.
                                                                                     ===========================
        BUS FLEET REPLACEMENT AND
         REHABILITATION:
 CIP006     Bus Replacement            This project will purchase 100 buses a year    ...........  ...........
                                        to maintain an average fleet age of 7.5
                                        years based on the 2009 fleet size of
                                        approximately 1,500 buses that range in size
                                        from 26 to 62 feet, and are a mix of
                                        conventional and articulated buses.
                                                                                     ===========================
        MAINTENANCE OF BUS GARAGES:
 CIP119     Bus Garage Facility        This project is a bus facility rehabilitation         18.9         25.7
             Repairs Tier 1.--          of Western, Northern and Landover bus
             Western, Northern and      garages and other auxiliary facilities,
             Landover                   includes Metro Supply facility, Landover
                                        Open Storage and Blair Road Support Shop.
                                        The facilities in this project were
                                        originally put in service between 1906 and
                                        1989. Work will include all systems and
                                        infrastructure to increase overall
                                        efficiency.
                                                                                     ===========================
        BUS SAFETY IMPROVEMENTS:
 CIP007     Bus Camera Installation    This project is based on completing            ...........          3.0
                                        installation on remaining buses, which will
                                        ensure that all buses will be equipped with
                                        camera systems to reduce detrimental impact
                                        of fraudulent claims, reduce or eliminate
                                        vandalism, deter crime, assist in criminal
                                        prosecutions, and help employees assist
                                        customer concerns and complaints.
 CIP002     Automatic Vehicle          This project will begin the replacement of             3.7         12.1
             Location Equipment         Advanced Vehicle Location (AVL) equipment on
             Replacement                buses that was installed on buses prior to
                                        2002. The equipment, which allows monitoring
                                        of bus locations, has a life span of 7-10
                                        year. If Metro does not replace obsolete AVL
                                        equipment, Metro will not be able to monitor
                                        the location of buses with the old equipment.
                                                                                     ---------------------------
              Total                    .............................................          3.7         15.1
                                                                                     ===========================
              PRIIA Funds              .............................................        300.0        300.0
----------------------------------------------------------------------------------------------------------------


           MEASURING PROGRESS AND PERFORMANCE IN METRO SAFETY

    Senator Mikulski. Well, let me get right to some of my 
questions. A year ago, right after the accident, I was very 
intensely critical of Metro, and everybody knows it. What I 
said, though, is that I didn't want to be the manager of Metro. 
I don't think that is an appropriate congressional role. But 
one of the questions that I said at that time, I am not saying 
it this time, is that often solving the problem was having a 
meeting about the problem, and that was viewed as solving the 
problem.
    I asked about how was Metro--and at that time I placed 
responsibility on the board, but I throw this question open to 
both of you. When we talk about safety and operational 
reliability--but let us go to the safety, you need to have the 
systems in place. You need to have the training, and you need 
to also find out if those systems and training are working.
    So my question to you is how are you measuring progress and 
performance? What we have here in your testimony, and you and I 
have had the opportunity to speak before, is a rather 
comprehensive list of actions taken. Develop an incident 
tracking and safety management reporting system. Encourage 
near-miss reporting, like an anonymous hotline. Strengthen 
whistleblower protection so you don't shoot the messenger.
    In other words, these look promising. But we have been down 
the road of promises before, both the Federal Government, when 
we promised funding and broke that promise. So now it is our 
job not to break our promise. But the second is that with this 
list of things that you say will improve safety, you, sir, and 
you, Chairman Benjamin, how will you measure progress? How will 
you measure performance? What metrics are you going to use so 
that you would really know if this is going to work?
    Mr. Sarles. First of all, we have set deadlines for 
delivering certain items, when we are going to have the track 
worker protection manual done, for example. We have already 
completed the draft, but now we have a deadline for finalizing 
that and starting training.
    We set dates for starting training programs. Starting next 
week, there will be a series of training programs over the 
summer for people. We have these deadlines set. We are going to 
make these milestones, and we can be measured against that.
    Beyond that, in the longer run----
    Senator Mikulski. But how are you going to measure them?
    Mr. Sarles. By meeting those deadlines. If we say we are 
going to deliver a manual, the track worker protection manual 
by a certain date, we have to make that date. If we say we are 
going to conduct training, which we are, this summer between 
such and such a date and what those courses are, we will show 
that we made those dates and, in fact, people attended those 
sessions. Those are the close-on measurements, if you will, 
that if you say you are going to do something, you deliver on 
it.
    Beyond that, ultimately, what the performance measure is, 
measures that you will see safety wise are number of injuries, 
both employees and passengers, number of incidents or 
accidents, that sort of thing. That tells you over the long 
term whether you are actually seeing the right trends. And if 
you are not seeing the right trends, which all should be 
downward, then you have to take additional actions. And those 
are the types of things we will make public so people can see 
how we are doing as a scorecard.
    Senator Mikulski. Well, there was a woman, actually, a 
widow, after her husband's death in January, stepped forward to 
say that this was her description of safety training for her 
husband--now I am going back to before your arrival, but 
nevertheless--she said Metro's solution is having a safety 
meeting, putting on a video, and then handing out hard hats.
    They met a deadline. They had a meeting. They even had 
``training,'' but it was a video. Her husband, according to her 
comments, had concerns about the vehicle that ultimately killed 
him. That it was too powerful, too dangerous, and that it had 
no backup camera. It had no backup sound and lights were 
disconnected. Metro didn't have floodlights. In other words, 
this is beyond giving out manuals and meeting deadlines.
    Mr. Sarles. Yes.
    Senator Mikulski. I mean, start with the manual. But that 
is the whole darned problem, which is that we hear they are 
giving out manuals, and they meet deadlines. So what the hell 
does that mean? Pardon me.
    Mr. Sarles. Yes, sure. You have the manual. Then you have 
to train to that manual so the workers understand exactly what 
the procedures should be and how they should operate in a safe 
manner. And then you see, through gathering of the statistics 
that support the performance measures that, in fact, we are 
having fewer incidents, and the goal is to be zero in terms of 
accidents.
    So you have to take the first steps, put it into place, do 
the training, and then measure the results of that training.
    Senator Mikulski. Well, I understand, and I want to go to 
Mr. Benjamin, that at your board meeting, up until very 
recently, you got no reports on safety?
    Mr. Benjamin. Senator Mikulski, we did get reports on 
safety. We always, on a monthly basis, were told how many 
accidents there were, how many incidents of various types there 
were, how many fatalities, how many injuries, and what the 
trend over time had been. What we did not get reports on and 
what we should have heard about and we now are getting reports 
on is the degree to which our safety staff was fully staffed, 
the degree to which we were responding to our oversight 
agencies effectively and meaningfully, and the degree to which, 
when findings were made, we were, in fact, carrying out those 
activities.
    So, yes, we got the big picture, but we weren't getting 
enough. And we have now changed that. We are getting more 
information, and we have asked our inspector general, as a 
separate path. Originally, the only path was going through the 
General Manager. The inspector general now reports directly to 
us as the Board to review all of those materials, make sure 
that activities were occurring at the schedules that were 
required, and that if we are not getting that activity 
occurring, to report directly to the Board.
    We have also asked the Tri-State Oversight Committee to 
brief the board directly so that if information is not flowing 
properly, we hear about it right away.

                     TOP SAFETY AND HAZARD CONCERNS

    Senator Mikulski. The FTA audit found that Metro didn't 
have a list of the top 10 safety and hazard concerns. Do you 
now have that list?
    Mr. Sarles. Yes.
    Senator Mikulski. Are you aware, Mr. Benjamin, of what 
those top 10 are?
    Mr. Benjamin. I am not aware of that particular list.
    Senator Mikulski. But those are the top 10 safety and 
hazard concerns. Look, please, and I am not trying to play a 
game of ``I gotcha,'' and I am not trying to embarrass you. I 
am trying to get to the point. We had the accidents. We have 
had the FTA audit. We are making corrections.
    One of the things that they said was Metro did not have a 
list of 10 safety and hazard concerns. Now, sir, you say you 
have the 10?
    Mr. Sarles. Yes. And I will give you a couple off the top 
of my head. One is strengthening the Safety Department, which 
we have done. We are moving forward on that. We have hired a 
new Chief Safety Officer, who is here with us today. We had a 
dozen positions added. We filled six of them. We are 
interviewing this week and next week to fill the remainder.
    Another issue was to replace the 1000 Series cars. I am 
expecting to go to the board very shortly to seek approval to 
acquire new cars to replace those 1000 Series cars. And----
    Senator Mikulski. I have a request.
    Mr. Sarles. Sure.
    Senator Mikulski. We will leave this open. I would like you 
to submit for the record the 10 top safety and hazard concerns.
    [The information follows:]
                   Ten Key Safety and Hazard Concerns
    Replace the oldest railcars in the fleet (Rohr 1000 Series 
railcars).
    Develop a new real-time automatic train control redundancy system.
    Strengthen the expertise of the Safety Department.
    Complete the Roadway Worker Protection Program.
    Develop a training and certification program for bus and rail 
personnel.
    Strengthen employee knowledge of rules and rules compliance.
    Develop an accident and investigation database.
    Create a strong internal training tracking database.
    Fill vacancies in the Safety Department.
    Improve the agency's safety culture.

    Mr. Sarles. Yes.
    Senator Mikulski. The actions taken on them, and then I 
would like you to give them to your own Board.
    Mr. Sarles. Will do and we have discussed most of them with 
the Board. We have presented some of those.
    Senator Mikulski. That is the point.
    Mr. Sarles. Yes.
    Senator Mikulski. Mr. Benjamin, you are a very dedicated 
public servant. I know your record. You are man of really civic 
engagement. Can you tell me why you didn't have the top 10?
    Mr. Benjamin. Well, as Mr. Sarles was saying, I think I did 
not recognize it as ``the top 10,'' as listed like that. But I 
am fairly certain from his statement that these are all issues 
that we have discussed, just not discussed as ``the top 10 
list.''
    Senator Mikulski. Sir, would you identify and would you 
agree that those are the top 10 things that need to be changed?
    Mr. Sarles. Yes.
    Senator Mikulski. In the order of priority?
    Mr. Sarles. Yes.
    Senator Mikulski. Well, I would like to really have a copy 
of those top 10 for us as well for the record. But I also would 
really recommend we call this the ``checklist for change.'' 
That this is one of the basic lists that we will follow. It 
won't be the sole list, but it will be a primary list that we 
can all agree upon actions taken and progress measured. Would 
that be a good way to go?
    Mr. Sarles. That is fine.
    Senator Mikulski. Because we don't want to be you, but we 
need to know how you are doing.
    Mr. Sarles. And I welcome that, and that is part of the 
scorecard----
    Senator Mikulski. We need to know then how the board then 
focuses on that. Now we understand that the safety department 
has had 41 staff positions, but 10 were vacant. Now where are 
we on that?
    Mr. Sarles. Yes, and that is what I was referring to 
before----
    Senator Mikulski. Maybe you don't need all 41. Maybe that 
was from another era. But what we are concerned about is that 
since 2006, it was reorganized six times. That is what I mean 
about having a meeting, a meeting, a meeting, and then the 
meeting met the meeting, and then it met the deadline.
    Mr. Sarles. I will agree with you that there has been too 
much reorganization.
    Senator Mikulski. Not enough organization.
    Mr. Sarles. And I am trying to stabilize that. And one of 
the things that was done just before I got there--and it is the 
right thing--is that the Chief Safety Officer now reports to 
me. Ten positions were created. Actually, I think it was a 
dozen last December. Six of them have been filled. We are 
interviewing for the remainder. We expect to fill those within 
the next 45 days.
    Senator Mikulski. You will have that in 45 days?
    Mr. Sarles. Yes. And then, on top of that, the board 
authorized at their last meeting the hiring of outside 
expertise because I want to take a look at further 
strengthening the Safety Department to see if the staffing is 
appropriate, to see if they are trained properly.
    The board has authorized that. We are out now seeking 
proposals. And I expect within the next 2 weeks to award that 
contract.
    Senator Mikulski. So, what do you think will happen when 
you do that?
    Mr. Sarles. The key thing is that we look at the Safety 
Department and, as I said, see where it needs to be 
strengthened further. Is it organized exactly the way it should 
be? Get that outside expertise and also aid us in looking at 
the other safety aspects as part of our safety plan.
    Mr. Benjamin. Senator Mikulski, if I may?
    Senator Mikulski. Yes, please.
    Mr. Benjamin. I think one of the most important things that 
Mr. Sarles has focused on is the culture issue, which you 
mentioned earlier, and the fact that safety is not something 
that happens in a safety office and that safety officers who 
work in headquarters don't cause safety to come about.
    And one of the things that he has been working on is making 
sure that safety is, in fact, the way that we live, the way 
that we react, the way that everybody focuses on the actions 
that they take, starting, as you pointed out, from the 
Congress, through the Board, the General Manager, the 
supervisors, and everybody working throughout the system. And 
one of the things he has done right away is to make sure that 
there are safety people out in the field working with the 
various organizations, not just in an office sitting and 
keeping track of things.
    Senator Mikulski. Well, I would concur. Safety officers are 
not meant to be the bean counters, counting how many accidents 
happen. It is the major prevention team. So in the area of 
safety, you not only need to have first responders, the ability 
to get out of the cars fast. You know, a lot of what the 
National Transportation Safety Board [NTSB] is going to tell us 
is what to do after a crash, which is how to get out fast and 
to have a black box to tell you what happened. We are in the 
prevention business.
    Mr. Sarles. Exactly.

                          METRO MODERNIZATION

    Senator Mikulski. That is what we are. I think the biggest 
role of Congress is we are in the prevention business. I know 
we must be. I want to move in short order to modernization 
questions and then this will go to the question related to 
modernization. To what degree, when we look at technological 
problems and the survivability of the cars, is due to the fact 
that the Metro system is a system that is aged in place?
    Mr. Sarles. Certainly, when you have a----
    Senator Mikulski. Do you agree, first of all, that is aged 
in place?
    Mr. Sarles. Yes.
    Senator Mikulski. That it takes a lot to run it and 
maintain it?
    Mr. Sarles. And that is one of the things that has not 
occurred over the years, as I can see. The attention to 
maintenance, the attention to reinvesting in the system just to 
keep it in a state of good repair, sort of like-new condition, 
without having that continual reinvestment in the state of good 
repair, it does cause reliability issues. You are now repairing 
things. Things break down, even during the operation. That 
shouldn't be the way it operates.
    And I believe with the proposed capital program, that 
especially with the infusion of the $150 million for 10 years 
and the matching funds from the jurisdiction--that, combined 
with maintaining the same level of other jurisdictional 
contributions, will go a long way over a period of time to 
restoring this system to a state of good repair.
    It is not there now, and it has got to be changed. And that 
is what we are focused on.
    Senator Mikulski. Mr. Benjamin, do you want to comment on 
that?
    Mr. Benjamin. Yes. I agree entirely with the statement that 
you made. Our rail system is not brand-new anymore. It is 34 
years old. Senator Cardin made that point as well.
    It is a system which has not been reinvested in. You cannot 
have an infrastructure that hasn't been properly reinvested and 
parts of it maintained properly. Most of our escalators, one of 
the things that people complain about all the time, were 
designed to operate for 20 years. Many of them are 30 and 35 
years old.
    When you have equipment that old, maintaining it, keeping 
it operating is extremely difficult, and the result is you are 
compromising safety.
    When you have moving equipment that people ride on, you 
have to maintain it. You have to replace it when the time 
comes. And we have not made those investments, and that is what 
is critically necessary. And I believe that with the new 
funding that we have from the Federal Government, with the 
continued funding by each of the jurisdictions by their match 
to the funding from the Federal Government, we will be making 
progress.
    And probably, we will get to the point where we will be 
able to bring our system to a state of good repair. What we 
will then have is the challenge that we won't have enough money 
to really deal with the expansion of service that is necessary 
even within our given confines in order to allow us to serve 
more and more people that will need to use our existing system.
    Senator Mikulski. Well, I know you have just completed 
extensive public hearings over the fare box issues, and you 
have a pretty good sense that Metro, No. 1, is popular.
    Mr. Benjamin. Yes.
    Senator Mikulski. There is a lot of expectation of Metro. 
As I understand it a significant amount of your funds are now 
going into Metrobus and MetroAccess. Is that correct?
    Mr. Benjamin. In the increase that is in the proposed 
budget, the subsidy increase for bus goes up by about $20 
million, the subsidy increase for MetroAccess goes up by about 
$20 million, and the subsidy increase for rail is actually a 
decrease of $40 million. So what we are looking at is 
substantial subsidy going to bus and to paratransit and rail 
not getting as much. What we are doing then is charging our 
rail passengers more and having them pay that difference.
    Senator Mikulski. Well, that is a pretty startling kind of 
breakdown there because it is the rail that carries the 
majority of the passengers. I am not into allocation or 
disputing because I think you would be the first to say you 
need rail, bus, and then people with special challenges need 
the MetroAccess. We are not disputing any of that.
    But for the $150 million Federal contribution, what are we 
going to get? Are we going to get modernization? Are we going 
to get maintenance? Are these safety improvements? What would 
be the breakdown of the $150 million?
    Mr. Sarles. You are getting, first and foremost, safety 
improvements. The second is state of good repair improvements. 
That is just bringing the system back to where it was, and when 
you do that, you also improve the safety of the system because 
there are less breakdowns, which causes other problems. That is 
what the capital program is all about. It is safety and state 
of good repair and that is especially what the dedicated funds 
are going to, nothing else.
    As the chairman was mentioning before, we are not, in this 
program, at this time, investing in ways to expand the system 
either by adding more eight-car trains or expanding the number 
of buses. This is solely focused on the existing system's state 
of good repair and safety.
    Senator Mikulski. What about modernization?
    Mr. Sarles. Only in the sense that, say, for instance, when 
we replace the 1000 Series rail cars, we will, of course, 
design them and build them to the latest standards, both safety 
and functional and all the other standards. So, in that sense, 
there is a modernization. When you take something old and 
rehabilitate it, you bring it up to the most modern standard. 
So you get that kind of modernization that goes on.
    Senator Mikulski. Well, this takes me to the Federal 
responsibility that while we might be self-congratulatory that 
we are finally providing a guaranteed revenue stream of $150 
million, the fact is, is that helps maintain the status quo in 
good operating order.
    Mr. Sarles. Right.
    Senator Mikulski. I don't mean to overstate it, but is that 
kind of a good summary of it?
    Mr. Sarles. Exactly.
    Senator Mikulski. So, if we wanted to modernize, it would 
take additional revenue from either your Federal partners or 
other partners. Is that correct?
    Mr. Sarles. That is correct.
    Senator Mikulski. If you wanted to because we know there is 
going to be some rather robust NTSB recommendations. Those will 
probably in many ways deal with more modernization. Am I 
correct?
    Mr. Sarles. Yes, I would assume so.
    Senator Mikulski. Well, what I would like from you, as we 
discuss it among ourselves because this goes to national 
priorities for not only the Washington system, but for 
Americans' public transit, is how are we going to meet our 
responsibilities for capital improvement, modernization, and 
operational cost? These are national issues, and in some ways, 
you are right here. So we see you with the good, the bad, and 
the ugly.
    But I am going to go to the good, and a modern system needs 
to be continually modernized and from a management standpoint, 
modernization is not an event. It is a process.
    Mr. Sarles. You are right. It is a continuing process. As 
we rehabilitate, improve, we have to also bring it up to modern 
standards. And if you don't, you fall behind.
    Senator Mikulski. Well, I like to have hard, concrete 
things, as you hear me say, to measure against, for example the 
checklist for change. But when NTSB comes out with their 
report, apart from overall words like ``modernization,'' we 
would like to hear from you what would it take to implement it? 
And I think that is a fair question.
    We don't want to create unfunded mandates, but I think it 
is time that Congress has to take a realistic view of what it 
needs to do to provide in partnership--again, we are in 
addition to the stakeholders and the locales. But at the same 
time, if there are Federal requirements, there should be a way 
for assistance to meet those Federal requirements.
    Mr. Sarles. I would welcome that----
    Senator Mikulski. I am sure that is the way you see it. 
That, in some way, is out of the scope of the subcommittee. I 
mean, it goes to authorization. But I believe rail, whether it 
is heavy rail to move cargo in our corridors, whether it is--I 
will call it heavy rail, to move people in the Northeast 
Corridor, whether it is our MARC trains or the Virginia version 
of that, we need to have a real commitment to rail and mass 
transit in this country because, whether it is Purple Line, our 
Red Line in Baltimore, your Red Line here, but we are running 
into a lot of red ink. Isn't that the problem?
    Mr. Sarles. Yes.

                            BUDGET SHORTFALL

    Senator Mikulski. Now you have a $189 million shortfall?
    Mr. Sarles. Currently, right.
    Senator Mikulski. So, first of all, what you hear from the 
subcommittee is not shouts and chest pounding about how we are 
going to withhold the money until you do such things. We do 
believe, though, there has to be modernization. There has to be 
safety reform, and there has to be accountability. By 
accountability, we mean real measurements.
    So we are going to be talking with you over the next year. 
We have said a lot about what we think about you. I am not 
going to ask you what you think about us. But as Congress looks 
at what it needs to do, I am asking you what your 
recommendations would be to us about what a Federal partnership 
would mean for modernization, safety improvements, and 
increased operational reliability.
    Whether it is the escalator working, which we hear a lot 
of, or the fact that significant funds do go in buses. 
Significant funds do go into meeting the Federal mandate of 
access for people who are challenged. Am I correct?
    Mr. Benjamin. You are absolutely correct.
    Senator Mikulski. So do you have thoughts or 
recommendations you would like to make to us?
    Mr. Benjamin. Well, one of the issues, as you point out, is 
that we do have a number of requirements that are already upon 
us, one of those being providing service for persons with 
disabilities. And that is an ever-increasing cost to every 
transit system in the United States.
    It is a critical service for us to provide because we are, 
in fact, the lifeline for many of those people. It is the only 
way that they can become productive members of society, and 
therefore, it is critically important for us to provide the 
service.
    However, what we are discovering is that it is overwhelming 
in terms of the cost increases, particularly in this area. It 
is overwhelming our ability to also provide service for 
everybody else because we just don't have enough money to catch 
up with everything. So, to the degree that the Congress can 
help us in funding that portion, and that is actually everybody 
in the United States, every transit system in the United 
States, funding the increasing operating costs of that portion, 
it allows much of the State and local funding, which otherwise 
is going into those increases, to be used for improvements in 
bus and improvements in our rail service, which, as you point 
out, is where the vast majority of our people are.
    So we have got to draw a balance between providing a 
critical service for people that have no other choice and 
providing the really major service for the vast majority of the 
people in the region. So it is an area that is very, very 
important. And I would encourage the Congress to look at that, 
both for Metro here, but for everybody around the country.
    Senator Mikulski. That is what I was saying. This is a 
national issue, and it is a mandate. Well, I can only speak 
from personal experience. You know, about 10 months ago, I had 
a fall and cracked my ankle in three places. So I got around 
with a wheelchair. Then I got around with a walker. I had a 
space boot that was 3 feet long. But my situation was 
temporary.
    But I learned a lot from the temporary situation because I 
often thought about for many people, whether it is a returning 
Iraq or Afghan vet, whether it is a senior citizen, a child 
injured in an accident, mine was temporary, but for many, it 
would be permanent. But I mean, even for me, getting to 
doctor's appointments, returning to work, I had a car and 
somebody to help me.
    If I didn't have that, and you will be interested to know, 
when I came in to vote for Sotomayor and I came in from Mercy 
Hospital to meet my constitutional responsibility, I came in a 
mobility van. Not yours, but something provided by the Senate 
to move handicapped Senators or staff around. I thought, you 
know, there are people that do this every day, and they need 
it. I am really committed to them having that service.
    But what you are saying is commitment, social policy, 
economic policy, this would be an area where the Federal 
Government is not taking over the role of the State and locals, 
but it is meeting a Federal mandate. This is an area that would 
enable State and locals to use other of their funds. So now you 
are subsidizing the Federal mandate when the Federal Government 
should be paying the share for its own mandate.
    Mr. Benjamin. Extremely well said, Senator Mikulski.
    Senator Mikulski. Is that the way it would go?
    Mr. Benjamin. Absolutely.
    Senator Mikulski. Well, I think that is a very good 
direction to go in because as we ponder how to think about more 
money, again, the national systems--New York, San Francisco, 
Chicago, any big city, my own, the one in the Baltimore area--
we don't want to get in the business of being the local 
government or the State government. But I think this is a very 
good guidance.

                        CORRECTIVE ACTION PLANS

    Before I go on to the other panel, I do have a question 
again about the FTA report. I understand that there were a 
number of open cases that were in the audit. I think there were 
63 open cases dating back to 2006. Could you tell me where you 
are on your open cases and the backlog, and were they resolved?
    Mr. Sarles. Sure. They are not all resolved yet. One of the 
things that we have been much more aggressive about is these 
corrective action plans, and there are old ones and new ones 
get added. We have actually become more aggressive in the last 
few months, upping the number of closeouts, if you will.
    I have given staff a goal of 10 a month so that when you 
look at where we are--we are about at 85 because others got 
added. But we are now cutting away at that backlog, if you 
will, and the goal is to get them down quickly.
    Senator Mikulski. How old is your oldest case?
    Mr. Sarles. It is several years old. I don't remember the 
exact date, but it is several years old.
    Senator Mikulski. In other words, are you moving the 
backlog?
    Mr. Sarles. We are going after the backlog, too, as well as 
the current stuff. Yes.
    Mr. Benjamin. Senator Mikulski.
    Senator Mikulski. Yes.
    Mr. Benjamin. This was the area that I was referring to 
that the board was actually very shocked when we discovered how 
many of these cases there were. There are two parts to it. One 
is the creation of a corrective action plan. That is responding 
to an audit finding and saying this is what we are going to do.
    We did reasonably well on that, but not very well; we had a 
lot of corrective action plans that had never been filed, never 
been created.
    The second part is actually implementing that plan and 
making sure you have done something. Now some of those you can 
do very quickly and easily. Some of those are very difficult 
because one of them, for instance, is a recommendation by the 
National Transportation Safety Board that we replace 300 1000 
Series railcars. Well, that takes a lot of money and takes a 
lot of engineering. So those take longer.
    So it is reasonable for some of them to be a little bit 
older and some of them to be newer. But one of the things we on 
the Board have said is we want to know what is out there and 
what progress we are making and we are now getting those 
reports.
    Mr. Sarles. To give you a more definitive answer, the 
oldest two are from 2004 and have to do with configuration 
management, which is how you make sure all the changes that 
take place on a particular event get integrated. Those are the 
two oldest.
    Senator Mikulski. Well, that is exactly what we are talking 
about, all the lessons learned.
    Mr. Sarles. Yes.

                              METROACCESS

    Senator Mikulski. One last question and this is a budget 
question. How much does it cost you to run MetroAccess, and how 
much is the Federal contribution? Do you know that?
    Mr. Sarles. Off the top of my head----
    Mr. Benjamin. I can tell you what the Federal contribution 
is. It is zero. It is around $100 million----
    Mr. Sarles. Yes, that is the number. And there is no 
Federal contribution to our operating budget. So we absorb that 
totally. The jurisdictions do.
    Senator Mikulski. Well, I think that is an interesting 
insight.
    Well, we want to thank you, Mr. Benjamin. We want to thank 
you, Mr. Sarles. We know we are going to have a lot more 
conversations. You are excused from the testimony. If you want 
to stick around, we are happy to have you.
                        NONDEPARTMENT WITNESSES

    Senator Mikulski. We would now like to call up to the 
witness stand Ms. Jackie Jeter, the president of the 
Amalgamated Transit Union Local 689. We also wanted to hear 
from the riders. We wanted to hear from Mr. Francis DeBernardo, 
the chairman of the Metro Riders' Advisory Council, and Mr. 
Jack Corbett, the head of MetroRiders.org.
    So, Ms. Jeter, you represent a good bit, if not the 
majority of workers at WMATA. We would love to get your views 
on safety. And again, there were people who were members of the 
union who passed away at these terrible and horrific accidents, 
our sympathy and condolences to their families.
    But we feel that the way we can express sympathy is to make 
sure it doesn't happen again and again and again. So we welcome 
your testimony and your insights.
    And to the riders, we want to hear what you have got to say 
and uncensored, no holds barred.
STATEMENT OF JACKIE JETER, PRESIDENT, AMALGAMATED 
            TRANSIT UNION, LOCAL 689
    Ms. Jeter. Thank you.
    I would like to start off by thanking Chairwoman Murray, as 
well as you, Senator Mikulski, on your insight concerning the 
Federal Transit Administration's audit, also your introduction 
of Senate bill 1506 on WMATA safety. It shows the dedication 
that is needed on this particular issue.
    Every WMATA stakeholder has a vested interest in making 
sure that we discuss the issues, but more importantly, making 
sure that we find solutions that enable us to move forward. As 
a stakeholder, Local 689 is fully aware of each safety, 
funding, and operations issue is interdependent. It is 
incumbent upon all of us to rebuild the public's confidence in 
our good, but aging transit system.
    I will address each part of the questions that you ask. I 
will start with the budget. In order to realistically develop a 
plan of action that will address the various safety issues 
facing the transit system, we must begin with the funds 
necessary to operate and improve it. The infrastructure at 
WMATA rail system is over 30 years old, and as such, an 
investment must be made to improve technology, repair the 
places where the structure has weakened, and provide for growth 
of the system.
    Proper fiscal planning must be the cornerstone of this 
system. We have debated wage and benefit issues for the last 3 
years and have been victimized by WMATA's failure to adequately 
plan for expected labor cost increases. Beyond the impact of 
wages and benefits, it is the impact on the public, as service 
cuts are becoming standard practice to help close budget gaps.
    Further, insufficient capital funds have led WMATA into an 
environment where less than a state of good repair exists. For 
example, WMATA has identified $11.4 billion in capital needs 
over the next 10 years. Even with maintenance of efforts, the 
budget gap will not be completely closed and only maintaining 
the present system without providing an expansion.
    And in my written testimony, I go on, but I would like to 
also add that I would also recommend that requirements for 
meaningful whistleblower protection be included in the 
appropriations language. Some of the things that I talk about 
are the flexibility in the capital budget allocation in order 
to allow the use of capital funds to cover operating cost, 
making sure that the Federal transit benefit remains at the 
$230 a month; the two appointments for the Metro board, in our 
opinion, should at least be someone of a transit advocacy 
background, environmental group, or a labor union; and when we 
go down to safety, we have addressed this holistically by 
defining safety as a three-pronged stool. Our internal process; 
interaction with WMATA, and the need to keep the public safety 
at the forefront of our decisions and consideration for all 
other components of the plan, including funding, that impact 
everything that we do; the concerns of the Metro workers; and 
needed improvements.
     In the last several weeks, there has been an effort to 
look more closely at the overall safety issues affecting the 
system. Although I have been pleased to see some 
recommendations given to the Metro board, I am not confident 
that those changes will be implemented immediately. WMATA has 
inculcated a culture of deferment, which postpones needed 
improvements and changes in the system.

                           PREPARED STATEMENT

    Finally, I note the tendency to blame individual employees 
instead of looking for underlying systemic causes of safety-
related incidents. We believe that it should be urgency and 
rapidity that causes Metro to do what is needed to improve the 
safety of the Metro employees.
    Thank you for your time and attention.
    [The statement follows:]
                   Prepared Statement of Jackie Jeter
    I would like to begin by thanking Chairwoman Murray for convening 
this hearing and allowing us to participate in this important 
discussion. Senator Mikulski, thank you for your insight concerning the 
Federal Transit Administration's audit that has identified several 
serious underlying safety problems. Your introduction of Senate bill 
1506 on WMATA safety shows the dedication that needs to be given to 
this issue.
    Every WMATA stakeholder has a vested interest in making sure we 
discuss the issues, but more importantly making sure that we find 
solutions that enable us to move forward. As a stakeholder, Local 689 
is fully aware that each safety, funding, and operations issue is 
interdependent. It is incumbent on all of us to rebuild the public's 
confidence in our good but aging transit system.
    I will address each part of this equation: (1) Fiscal year 2011 
budget request for WMATA; (2) Local 689's efforts to improve safety and 
operational reliability; and (3) concerns of metro workers and needed 
improvements.
               fiscal year 2011 budget request for wmata
    In order to realistically develop a plan of action that will 
address the various safety issues facing the transit system, we must 
begin with the funds necessary to operate and improve it. The 
infrastructure of the WMATA rail system is over 30 years old and as 
such, an investment must be made to improve technology, repair the 
place where the structure has weakened, and provide for the growth of 
the system.
    While the need for more transportation has increased, the amount 
given to fund that necessity has not. That is evident from the current 
much publicized events at WMATA. The impact of insufficient funding has 
had a devastating effect on workers, riders, businesses and overall 
development in the three jurisdictions hosting the system. Public 
transportation will never be profitable; it is a public service. The 
critical nature of funding and the lack thereof has a major impact on 
the riding public and WMATA employees.
    Proper fiscal planning must be a cornerstone of this system. We 
have debated wage and benefit issues for the last 3 years and have been 
victimized by WMATA's failure to adequately plan for expected labor 
cost increases. Beyond the impact on wages and benefits is the impact 
on the public as service cuts are becoming standard practice to help 
close budget gaps. I will emphasize the need for flexibility in the 
capital budget allocation in order to allow the use of capital funds to 
cover operating costs. The ability to purchase a bus or rail car is 
only one part of the equation. If the Federal Government does not 
establish flexibility in the use of funds, it will be guilty of 
weakening the system. As users and providers, ATU Local has spent many 
hours developing and outlining these suggested measures:
  --Extend the Federal Transit Benefit at the $230 per month level 
        (Currently set to expire and revert to $120 per month as of 
        December 31, 2010.
  --Require the Federal General Services Administration to appoint the 
        two remaining WMATA board members, (one voting, one non-voting) 
        with at least one with a transit advocacy background, such as 
        an environmental group or labor union.
  --Support the passage of the Carnahan/Brown Bill to permit large 
        systems flexibility in use of Federal capital funds to cover 
        operating costs.
  --Passage of an ``Emergency Assistance'' bill that would help transit 
        agencies through this recession.
  --Move on 6-year Federal re-authorization bill that provides a 
        permanent funding plan for transit agencies. (Extension of 
        current authorization expires 12/31/2010. WMATA had recently 
        proposed a $4.6 billion, 6 year capital program. The previous 
        ``Metro Matters'' agreement spent $2.8 billion + $.2 billion in 
        Stimulus Funds over a 6 year period. Adding the $1.8 billion in 
        Federal and local ``dedicated funds'' would have been a $4.8 
        billion program. Adding an inflation factor would make that 
        total even higher. The current draft agreement provides for a 
        level of spending just over $5 billion over the next 6 years.)
  --WMATA has identified $11.4 billion in capital needs over the next 
        10 years. Even with ``maintenance of effort'' the budget gap 
        will not be completely closed and only maintaining the present 
        system without providing any expansion capacity.
  --The General Services Administration should be urged to locate new 
        Federal facilities in the Washington area near Metro stations 
        and restrict the number of parking spaces at such Federal 
        facilities to a reasonable ratio of automobile vs. transit 
        usage.
  --Support Obama's ``Public Transportation Safety Program Act'' (SB 
        3015).
  --Review carefully the formula grant that is used as the basis for 
        Federal funding to consider adjusting the percentage allocated 
        to Metro.
  --Lobby to establish a dedicated funding source from the 
        jurisdictions.
  --Consider recapturing tax incentives given to businesses that 
        surround the Metro stations. They should bear a greater share 
        of the costs because they gain a greater benefit as a result of 
        their location.
  --The Federal transit benefit should be indexed to both increased use 
        (riders) and inflation. It would get an annual increase 
        automatically that reflects the real costs of providing 
        increased services and any increase costs resulting from 
        inflation.
  --Consider supporting the development of the outer spokes of the 
        system to increase ridership and revenue from business 
        development likely to occur around the stations.
   local 689's efforts to improve safety and operational reliability
    We have addressed this holistically by defining safety as a three 
pronged stool--our internal process, interactions with WMATA and the 
need to keep public safety at the forefront of our decisions, and 
consideration of all other components of a plan, including funding, 
that impact everything we do. Our Internal process includes:
  --In cooperation with WMATA, relying on the Joint/Labor Management 
        Safety Committee to address issues as they occur.
  --In our orientation process and during union meetings we openly 
        discuss safety issues and solutions.
  --Forging a proactive media campaign and release of public statements 
        to apprise the public of issues and possible solutions to 
        safety problems with Metro.
  --Testifying before local and Federal agencies in regard to safety 
        issues, incidents and accidents to publicize the changes and 
        improvements needed to ensure greater safety throughout the 
        system.
           concerns of metro workers and needed improvements
    In the last several weeks there has been an effort to look more 
closely at the overall safety issues affecting the system. Although I 
have been pleased to see recommendations given to the WMATA Board, I am 
not confident that those changes will be implemented immediately. WMATA 
has inculcated a culture of deferment which postpones needed 
improvements and changes to the system. Finally, I would note that 
there is a tendency to blame the individual employee, instead of 
looking for underlying systemic causes of safety related incidents.
    Local 689's experience concerning the investigations, leads us to 
the belief that to date, WMATA has not implemented several key measures 
that would make the Metrorail system safer.
    Urgency and rapidity should be the hallmark of the suggested 
changes we are offering below. WMATA must consider instituting the 
following without delay:
  --Multiple layers and redundancy of safety protections.
  --Codification of standards for track worker safety similar to 
        Federal Railroad Administration track worker safety standards.
  --Clear and concise communication between workers and controllers.
  --Clear notification and designation of work areas and zones on the 
        right of way.
  --Development of a safety communications plan that alerts all WMATA 
        employees immediately to incidents.
  --Immediate notification of the union when a safety incident occurs.
  --Firm commitment to respect the rights of workers to have a union 
        representative present during investigatory interviews after an 
        incident.
  --Effective worker safety training.
  --Supervisory enforcement of safety standards.
  --A process for WMATA employees, to appeal the standards they believe 
        to be incorrect or unsafe, such as a Safety Appeal Board.
  --Meaningful whistleblower protection to insure that employees are 
        not fearful of reporting perceived safety problems.
  --Effective labor-management safety committees.
  --WMATA's commitment to the rapid development and implementation of 
        procedures and standards that are calculated to improve safety 
        immediately and in the long term.
    Thank you for your time and attention to my concerns. I would be 
pleased to address any questions you might have in regard to my 
testimony. Thank you on behalf of my members and the riding public.

    Senator Mikulski. Thank you. That was very powerful.
    Let us go down this way. Mr. Corbett.
STATEMENT OF JACK CORBETT, DIRECTOR, METRORIDERS.ORG
    Mr. Corbett. Thank you, Senator.
    I appreciate the opportunity to testify, and I wanted to 
thank you on behalf of our members for your having lit a fire 
under WMATA leadership some months ago when it was very much 
needed. We are very appreciative of that.
    As you have said so well, the riders are very upset and 
have lost confidence in the system over the last year. The 
tragedy on the Metrorail system last June, the loss of Ms. 
Jeter's employees in other accidents, the scathing report from 
the Federal Transit Administration over the safety culture at 
WMATA, those things have all been very worrisome to riders. To 
ride the train and to see people choosing not to go into the 
first car of a six-car train because they know that was the one 
that had the tragedy is very worrisome to us.
    There is some good news. We are very pleased that two of 
the four Federal members of the Board of Directors have been 
appointed. Two, we are very pleased that WMATA has the 
leadership of Peter Benjamin this year, whose many years of 
service with WMATA makes him an admirable leader for WMATA's 
board during this very tough period.
    We are really pleased that this subcommittee is having this 
hearing because there are not many Federal or regional agencies 
that have any leverage over WMATA. As you know from having 
cosponsored legislation, the FTA cannot mandate any safety for 
WMATA. The local Tri-State Operating Committee is powerless and 
cannot require Metro to do anything. So we think this 
subcommittee, through your power over the conditions of the 
$150 million annual appropriations, can be very, very helpful.
    And we have got some very specific suggestions. As you have 
already indicated, put on maintenance of effort requirement so 
the jurisdictions that have financial problems of their own 
don't play games where they give $50 million in one side and 
they take money out of the other pocket. So that is very 
important.
    The other things the subcommittee could do to be very 
helpful: you could call the administrator of the General 
Services Administration [GSA] right now. They have been 
interviewing candidates for the other two Federal appointments 
since Thanksgiving, and we have urged that at least one of them 
be a safety official that would be added to the Board of 
Directors, and they still don't have two final appointments to 
the Metro Board, when the Board has got to make very important 
decisions about safety, funding, and capital.
    Before you finalize your appropriation this year, check to 
see how well WMATA is doing in agreeing to implement whatever 
recommendations the NTSB comes out with between now and then 
having to do with the causes of the tragic accident.
    Also, it was your work last year that got the FTA to issue 
that report. We think the subcommittee report ought to indicate 
that FTA should do another report at the 1-year point just to 
see what you have heard from Mr. Sarles and Mr. Benjamin is 
really having an effect, rather than just being paper products.

                           PREPARED STATEMENT

    We have other suggestions attached to our testimony. One I 
have to mention is even with WMATA's and the jurisdictions' 
best efforts, there is a $3 billion shortfall in the capital 
needs, as Ms. Jeter has pointed out, over the next 10 years. In 
the current capital budget, there is no money for any 
additional railcars or buses for 10 years. That means the 
riders who are standing today are going to have to stand for 10 
more years unless somebody, maybe the Congress, maybe the 
jurisdictions, contribute some funds to WMATA and other pressed 
transit systems in the country to fill that gap.
    Thank you very much, Senator.
    [The statement follows:]
                   Prepared Statement of Jack Corbett
    Chairman Murray and members of the subcommittee: Thank you for 
inviting MetroRiders.Org to testify today to discuss fiscal year 2011 
appropriations for the Washington Metropolitan Area Transit Authority 
(WMATA) and the safety and operational reliability concerns of 
Metrorail and Metrobus riders. MetroRiders.Org has represented the 
views of transit users in the Washington, DC metropolitan area 
beginning in 2004. We are a riders' voice outside WMATA.
                     safety concerns are paramount
    WMATA's recent and continuing safety and financial challenges are 
well known. The June 2009 Metrorail tragedy that took 9 lives and 
injured 80 others and the subsequent deaths of track workers document 
that Metrorail safety problems impact riders and employees alike.
    Senator Mikulski's leadership in urging a Federal Transit 
Administration (FTA) safety audit of WMATA and the regional (powerless) 
Tri-State Oversight Committee generated a hard look at WMATA's own 
safety program and resulted in a scathing FTA report questioning the 
safety culture at WMATA. More recently, David Gunn, a former WMATA 
General Manager, was asked by the current WMATA Board to conduct a 
review of the entire Metro operation. That 2-week review resulted in a 
report highly critical of WMATA's management and organization and 
suggested that ``MetroRail has downhill momentum that will be difficult 
to stop.'' Both the FTA audit and the Gunn presentation to the WMATA 
Board should be included in the record of today's hearing.
    Finally, the National Transportation Safety Board (NTSB) held 3 
days of investigative hearings in February about the June 2009 
Metrorail tragedy; its findings on the probable cause or causes of that 
accident should be released soon. For all these reasons it's 
understandable that there has been a loss of rider and public 
confidence in Metro's safety, management and operation.
           wmata board has been responsive to safety concerns
    The current WMATA Board has played catch-up but is now attuned to 
fixing the system's safety problems. We are grateful that current WMATA 
Board Chairman Peter Benjamin has had decades of experience as a WMATA 
staff official and is leading the Board--composed of public officials 
and political appointees--during this critical period. The recent 
appointments of an Interim General Manager and a new WMATA Chief Safety 
Officer are hopeful signs.
 financial problems underlie the 34-year old metrorail system's frailty
    Metrorail's safety problems are not unconnected to its age. Like 
many aging transit systems across the Nation, Metrorail needs to 
replace its oldest cars and rail infrastructure to meet FTA's ``state 
of good repair'' recommendations, as well as to increase rail and bus 
capacity to meet growing traffic demand. Unfortunately those capital 
requirements are occurring at a time when WMATA's contributing 
jurisdictions are hard pressed to provide the needed resources because 
of their declining revenues during the national economic downturn.
        fiscal year 2011 operating budget gap is almost resolved
    There's somewhat better news, at least procedurally, about WMATA's 
operating budget. Everyone has read that WMATA has an estimated $189 
million gap in its fiscal year 2011 Operating Budget (July 2010-June 
2011). While riders will have to pay substantially higher fares 
starting this summer to help eliminate the coming year's operating 
budget gap and even then may suffer some service cuts, the WMATA Board 
has handled this situation very well. It opened up its decisional 
process to input from riders and the general public well before tough 
decisions were needed.
    WMATA received some 5,000 communications from the public about ways 
to solve the budget problem; some groups, including MetroRiders.Org, 
offered highly detailed proposals that were designed, for example, to 
move riders out of congested peak periods where possible, and to 
generate adequate revenue to eliminate or substantially reduce the need 
for Metrorail and Metrobus service cuts. We are grateful to the WMATA 
Board and staff for carefully considering these options. That the 
process was open, transparent and deliberative will make the resulting 
and inevitable fare increases somewhat more palatable.
     metroriders.org's ``top 10 recommendations to improve wmata''
    MetroRiders.Org has developed a substantial list of recommendations 
for restoring the public confidence in WMATA's governing body and 
management and in the safety of everyday Metrobus and Metrorail 
operations. That list is attached, and our recommendations would 
involve actions by this subcommittee, other Senate and congressional 
committees, Maryland, Virginia and the District of Columbia, the WMATA 
Board itself, and private organizations as well.
  senate thud appropriations subcommittee has broad jurisdiction over 
                                 wmata
    This subcommittee's jurisdiction over WMATA includes the authority 
to make appropriations for the U.S. Department of Transportation and 
its component agencies such as FTA and, specifically, from title VI of 
the Passenger Rail Investment and Improvement Act of 2008 (Public Law 
110-432, October 16, 2008) (PRIIA). That recent law authorizes the 
appropriation of up to $150 million annually for a decade to WMATA to 
finance in part the capital and preventive maintenance programs 
included in the Capital Improvement Program approved by WMATA's Board 
of Directors. Those Federal funds must be matched by contributions of 
``dedicated'' State and local funding from Maryland, Virginia and the 
District of Columbia.
    That statute included a number of additional, specific conditions 
upon which congressional appropriations to WMATA would depend.\1\ 
MetroRiders.Org urges this subcommittee to actively supervise WMATA's 
compliance with these conditions:
---------------------------------------------------------------------------
    \1\ Title VI authorized the Administrator of General Services to 
appoint four new directors to the WMATA Board, two voting and two non-
voting directors with one voting director ``to be a regular passenger 
and customer of WMATA's bus or rail service.'' To date, GSA has only 
appointed two directors, one voting and one non-voting. Both appointees 
are highly regarded and have been important additions to the WMATA 
Board. Because the WMATA Board is considering many critical agenda 
items (6-year capital budget, fare increases for fiscal year 2011, 
etc.) we believe the GSA Administrator should announce her final two 
appointments as soon as possible, as well as to specify which of the 
two voting directors would be the designated ``regular passenger'' 
board member.
    Further, the statute required WMATA to appoint an Inspector General 
for the agency, with full IG-level powers for internal investigations 
of budgetary and agency management issues. We have been disappointed 
that the new Office of Inspector General has concentrated on auditing 
agency contracts (as had the predecessor internal auditor) and has not 
focused on important agency management issues, as Congress clearly 
intended by its mandate. The media has performed what are traditional 
IG functions at WMATA, such as identifying ineffective staff 
organization of safety functions, lack of proper treatment of the Tri-
State Operating Committee, etc.
---------------------------------------------------------------------------
  --The subcommittee should appropriate the full authorized $150 
        million in Federal funds in fiscal year 2011 for WMATA capital 
        projects but with conditions.
    MetroRiders.Org is appreciative of this subcommittee's 
appropriating $150 million to WMATA for fiscal year 2010 but is 
disappointed that, 6 months after that fiscal year 2010 appropriations 
was enacted, WMATA has not yet finalized its application for FTA 
project approval for Federal and local matching funds. That said, the 
subcommittee should make full appropriations to WMATA for fiscal year 
2011, as recommended in the President's budget, because the funding is 
much needed for high priority capital projects.
  --Fiscal year 2011 appropriations should be conditioned upon the 
        State and local jurisdictions' maintaining their past 
        ``continuity of effort'' with their own funds as the $300 
        million annual Federal/local match contribution was to be all 
        ``new money.''
    We and other groups (and the local media) were very disappointed 
that the State of Maryland recently tried to reduce its fiscal year 
2011 capital contribution to WMATA below its past contribution level. 
Had this effort been successful, Maryland's $50 million in matching 
funds for the PRIIA appropriations would have been provided but its 
past annual contribution to WMATA (from the same pot of State 
``dedicated funds'') would have been reduced--resulting in a 
displacement of State funds with Federal capital funding. Worse, 
because Maryland, local jurisdictions in Virginia, and the District of 
Columbia contribute to WMATA based on a pro-rata formula, Maryland's 
reduced contribution would have also limited the contributions that the 
other two jurisdictions would make in fiscal year 2011.
    Only the glare of unfavorable publicity apparently caused Maryland 
recently to agree to increase its fiscal year 2011 capital contribution 
to WMATA to its fiscal year 2010 level plus the $50 million in new 
PRIIA-matching funds.
    Congress should condition fiscal year 2011 PRIIA appropriations to 
WMATA upon all three jurisdictions maintaining their past ``continuity 
of effort'' with their own funds. If severe fiscal problems in any 
jurisdiction preclude such continuous funding levels, that jurisdiction 
must promise to make up any shortfall within a specific number of 
fiscal years.
  --Before the House-Senate Conference on fiscal year 2011 THUD 
        Appropriations, the subcommittee should review the adequacy of 
        WMATA's response to the NTSB's findings and safety 
        recommendations resulting from the June 2009 Metrorail crash.
    In fiscal year 2010, the Congress conditioned WMATA's use of PRIIA 
appropriations to assure that safety projects would be funded. In 
fiscal year 2011, the Congress should review the adequacy of WMATA's 
response to the NTSB recommendations, anticipated to be released 
shortly. Currently, WMATA has a $30 million plug in its proposed 6-year 
capital budget for this purpose.
  --The subcommittee report on fiscal year 2011 PRIIA appropriations 
        for WMATA should request FTA to undertake a follow-up safety 
        audit of WMATA 1 year after the first audit.
    Because FTA's recent audit of WMATA found many serious safety 
concerns, and because FTA doesn't currently have authority to regulate 
WMATA's rail safety operations (see attached ``Top Ten Recommendations 
to Improve WMATA'' list), the subcommittee should urge FTA to conduct a 
follow-up audit of WMATA a year later to see if internal WMATA safety 
management has improved in the interim.
  --The subcommittee should appropriate funding to implement enactment 
        of the ``Public Transportation Safety Program Act of 2010.''
    As you know, FTA currently is statutorily precluded from setting 
and enforcing safety standards for rail transit systems such as WMATA's 
Metrorail system. We hope this legislation can be enacted soon, 
separately if necessary from congressional reauthorization of multi-
year surface transportation funding. When enacted, FTA could set safety 
standards for Metrorail, or Maryland, Virginia, and the District of 
Columbia could empower the Tri-State Operating Committee to undertake 
safety regulation of Metrorail. MetroRiders.Org prefers direct Federal 
safety regulation of WMATA by FTA.
    The administration has requested $24.1 million in fiscal year 2011 
for a new Rail Transit Safety Oversight Program and for an additional 
$5.5 million to fund 30 FTE in FTA's new and expanded Office of Safety. 
We hope the authorizing committees of Congress act on this needed 
legislation soon and that this subcommittee can provide the necessary 
appropriations.
    Again, thank you for allowing MetroRiders.Org to testify. I'd be 
pleased to answer any questions.
    metroriders.org' s ``top ten recommendations to improve wmata''
Safety
    Enact S. 1506/H.R. 3338 to authorize the Secretary of 
Transportation to establish national safety standards for transit 
agencies operating heavy rail on fixed guideways.
    Request FTA to update its safety audit on WMATA 1 year later.
    Assure adequacy of WMATA's response to expected findings and safety 
recommendations of the National Transportation Safety Board (NTSB) 
concerning the probable cause of Metrorail's June 2009 crash with 
fatalities and injuries.
Capital Financing
    Approve full authorized $150 million appropriation for WMATA in 
fiscal year 2011 on matching basis with Maryland, Virginia, and the 
District of Columbia but with conditions.
    Condition fiscal year 2011 appropriations to WMATA upon State and 
local jurisdictions' maintaining their past ``continuity of effort'' 
with their own funds as the $300 million annual Federal/local match was 
to be ``new money.''
    WMATA, its Contributing Jurisdictions and Congress should develop a 
plan to provide $3 billion in additional capital funding to WMATA over 
the next 10-year period (fiscal year 2011-fiscal year 2020) to provide 
needed rail and bus capacity during the decade beyond the inadequate $5 
billion 6-year capital plan now being negotiated by WMATA with its 
Contributing Jurisdictions.
Management/Governance
    The Administrator of General Services should appoint the remaining 
two Federal directors to the WMATA Board of Directors to supplement the 
existing two appointees and to designate one of the two voting Federal 
directors as the ``regular passenger'' Board member.
    Support the project of the Metropolitan Washington Council of 
Governments and the Greater Washington Board of Trade for a fast-track, 
independent review of WMATA's current governance structure.
    Support amendments to the congressionally-approved ``WMATA 
Compact'' that would make transparent and available for public comment 
the various ``behind-closed-doors'' negotiations among the Contributing 
Jurisdictions as to their future capital contributions to WMATA and to 
require WMATA to follow the ``open government meeting laws'' of area 
jurisdictions.
Other
    Congress should extend the current $230/month transit ``commute 
benefit'' beyond December 2010 for parity with the existing parking 
benefit.

    Senator Mikulski. Thank you. That was a very meaty 
presentation, Mr. Corbett. Thank you very much.
    Mr. DeBernardo.
STATEMENT OF FRANCIS DeBERNARDO, CHAIRMAN, RIDERS' 
            ADVISORY COUNCIL
    Mr. DeBernardo. Yes, thank you. Thank you, Senator 
Mikulski.
    Thank you for inviting me to testify. My name is Francis 
DeBernardo, and I am chair of the Metro Riders' Advisory 
Council.
    As a transit-dependent rider, I commute each day via 
Metrorail and Metrobus from my home in Greenbelt, Maryland, to 
my office in Mount Rainer, Maryland. On behalf of the council, 
I commend President Obama for including $150 million in his 
proposed fiscal year 2011 budget for capital and preventive 
maintenance projects.
    I also thank Congress for including funding in this year's 
budget. These grants, matched by jurisdictional partners, will 
address critical safety needs.
    As riders, we appreciate the Federal Government's 
recognition of the unique relationship between itself and Metro 
and urge you to ensure that these funds remain in the fiscal 
year 2011 budget. We ask, too, that you ensure that local 
jurisdictions will continue to fund Metro's capital needs by 
making any Federal aid dependent on maintenance of efforts from 
local jurisdictions.
    Along with this $300 million, Metro and its partners must 
finalize a new capital funding agreement. Metro has estimated 
that it has $11 billion in capital needs over the next 10 
years. However, as has been mentioned, if funding levels 
proposed remain constant over the next 10 years, funding will 
fall short by over $3 billion.
    Failing to keep the system in good repair seriously 
threatens safety. While certainly not as dramatic as the 
incidents that have occurred this past year, crowded platforms 
following service disruptions, crumbling platform tiles, and 
out-of-service elevators and escalators are significant 
recurring safety concerns. Ensuring stable and sufficient 
capital funding for Metro is necessary to improve safety.
    Commuters are not the only ones who benefit from good 
transit. The entire region benefits economically. Tourists 
visiting the Nation's capital benefit from having a convenient 
way to see the city. The Federal Government benefits from 
greater productivity. And drivers benefit from reduced 
congestion on roadways.
    Riders have expressed their vision for improvements at 
Metro. They want more reliable service, greater focus on 
customers, and clearer frequent communication from Metro, 
especially when things go wrong. Metro will soon begin a more 
robust reporting of its operational performance, and riders 
look forward to working with Metro to use those reports to 
improve service.
    Safety should top the list of Metro's core values. 
Effective oversight is critical to maintaining safety and 
confidence in transit. Mandates and projects that improve 
safety while maintaining service quality can greatly enhance 
transit. Mandates that impair service in the long run in the 
name of safety will only drive commuters to other more 
dangerous modes of travel.

                           PREPARED STATEMENT

    We are pleased that Congress is taking a strong interest in 
the safety and success of the Washington area's transit system. 
I thank you for this opportunity to provide testimony and would 
be happy to answer any questions you have.
    [The statement follows:]
                Prepared Statement of Francis DeBernardo
    Chairman Murray, Ranking Member Bond and members of the 
subcommittee, thank you for inviting me to testify today. My name is 
Frank DeBernardo and I am chair of the Metro Riders' Advisory Council.
    The Riders' Advisory Council was established by Metro in September 
2005 and serves as the riders' voice within Metro. The Council provides 
feedback to the Board as well as customer input to Metro staff. Council 
members are appointed by the Board of Directors. The Council consists 
of 21 members, 2 from each of the District of Columbia, Maryland and 
Virginia, 2 appointed at-large and the Chair of the Accessibility 
Advisory Committee. Members use all of Metro's transit services--
Metrobus, Metrorail and MetroAccess--and represent a diverse mix of 
ages, backgrounds and ways in which they use Metro.
    Metro experienced several tragedies in 2009, and suffered a 
substantial loss of public confidence. The June 2009 crash on the Red 
Line and subsequent declines in service reliability not only shocked 
and saddened the region, they also accelerated awareness of the larger 
problem, the growing disrepair of the Metrorail infrastructure.
    Despite the challenges faced by WMATA, it remains a vital asset to 
the Washington region. A recent Washington Post poll found that 80 
percent of riders rate the system positively. During April 2010, 
Metrorail recorded 3 of its top 5 highest ridership days (April 1, 2, 
and 7). This underscores the region's dependence on Metro and also 
highlights the need to redouble efforts to maintain and expand the 
system.
    On behalf of the Council, I would like to first commend President 
Obama for including $150 million in his proposed fiscal year 2011 
budget for capital and preventive maintenance projects at Metro. These 
grants, matched by dedicated funding from Metro's jurisdictional 
partners, will help fund projects to address Metro's most critical 
safety needs. As riders, we appreciate the Federal Government's 
recognition of the unique relationship between the Federal Government 
and Metro and urge you to ensure that these funds remain in the fiscal 
year 2011 budget as it is considered by Congress. We ask, too, that you 
help to ensure that local jurisdictions will continue to adequately 
fund Metro's capital needs by making any Federal aid dependent on 
maintenance of efforts by local jurisdictions.
    Along with the $300 million provided annually through the Passenger 
Rail Investment and Improvement Act of 2008, Metro and its partners 
must finalize a new capital funding agreement prior to the beginning of 
the new fiscal year on July 1, 2010. We are encouraged that 
jurisdictions have committed to fund a $5 billion 6-year capital plan. 
Recent decisions to restore funding for Metro's capital plan represent 
good news for riders. However, Metro estimated that it has $11 billion 
in capital needs over the next 10 years; the 6-year plan, as proposed, 
will mean that Metro will still fall short of this estimate of needs by 
over $3 billion over the next 10 years.
    Failing to keep the system in a state of good repair seriously 
threatens safety. While certainly not as dramatic as the incidents that 
have occurred over the past year, crowded platforms following service 
disruptions, crumbling platform tiles and out-of-service elevators and 
escalators are significant, recurring safety concerns.
    Ensuring stable and sufficient capital funding for Metro is 
necessary to improve safety.
    As WMATA prepares to enter into its next capital plan on July 1 of 
this year, governments must also provide the resources necessary to 
adequately maintain Metro's safety and service, from specific safety 
recommendations from the National Transportation Safety Board to the 
everyday yet critical maintenance challenges.
    In addition, WMATA must secure support for its operating budget. 
Closing the currently-projected $190 million operating budget gap for 
fiscal year 2011 will likely require both substantial fare increases 
and significant service cuts. Proposed service cuts, while greatly 
reduced from the original proposals, will still result in riders paying 
more for less service. During recent public hearings on WMATA's 
proposed operating budget, fare increases and service reductions, 
riders expressed a clear preference for increased fares over reductions 
in service. However, fares cannot be raised too greatly lest riders, 
especially the most vulnerable, be priced off of Metro. In addition, 
members of the public stated clearly that Metro must work to improve 
its service reliability.
    The Council is encouraged that Metro will, next month, launch its' 
``Vital Signs'' report to provide the Board, the public and other 
stakeholders a detailed overview of Metro's monthly performance. As 
rider representatives, the Council looks forward to working with Metro 
to ensure that these reports provide meaningful information and that 
issues they identify are subsequently addressed. It is an old adage 
that ``What gets measured gets done.'' These reports represent an 
opportunity for an honest dialogue between Metro and its stakeholders 
about what needs improvement and how we can work together to make those 
improvements happen.
    Commuters are not the only ones who benefit from good transit. The 
entire region benefits economically. Tourists from around the country 
who visit the Nation's capital benefit from having a safe and 
convenient way to see the city. The Federal Government benefits from 
greater productivity. And drivers benefit from reduced congestion on 
roadways. For that reason, the Riders' Advisory Council and transit 
advocacy groups asked local jurisdictions to increase their 
contributions enough to forestall severe service cuts, and it appears 
that many of the most onerous cuts will be avoided.
    Over the long term, Federal, State and local governments must 
recognize the tremendous asset that Metro represents to the region and 
support it accordingly. A majority of residents in the aforementioned 
poll said that the region should find new ways to fund Metro, even if 
that meant raising some taxes.
    Metro's budget difficulties are certainly not unique among the 
Nation's transit systems. A recent study released by the American 
Public Transit Association noted that 84 percent of transit systems in 
the United States are planning to raise fares and/or decrease service, 
or have already done so. Metro does provide uniquely direct value to 
the Federal Government, and therefore we hope Congress and the States 
can work together to explore long-term funding sources.
    In the midst of all of these challenges, Metro must also find a 
new, permanent General Manager. The Council hopes that as the Board 
begins its search it will solicit input from all of Metro's 
stakeholders, including its riders and its employees.
    Riders have expressed their vision for improvements at Metro. They 
want more reliable service, greater focus on customers, and clearer, 
more direct and more frequent communication from Metro, especially when 
things go wrong. While the General Manager must ensure a safe system, 
the region also needs a GM able to improve service quality and 
communicate effectively with the public to restore confidence. The 
Board should seek a candidate able to address Metro's long-term as well 
as short-term challenges and listen to stakeholders' views about those 
challenges.
    Safety should top the list of Metro's core values. Effective 
oversight is also critical to maintaining safety and customer 
confidence in transit. Still, safety cannot exist in a vacuum. 
Statistics show that commuting by rail is approximately 34 times safer 
than driving, and many riders make a daily decision between the two.
    Mandates that improve safety while maintaining service quality can 
greatly enhance transit; mandates that impair service in the long run 
in the name of safety will only drive commuters to other, more 
dangerous modes of travel. Transit must be safe; it also must not be 
permanently hamstrung in ways that actually make travelers across all 
modes less safe.
    We are pleased that Congress is taking a strong interest in the 
safety and success of the Washington area's transit system. At the same 
time, safety for commuters in our Nation's capital does not start and 
end with Metrorail. A U.S. Department of Agriculture employee was 
killed by a driver after the recent snowstorm when the employee tried 
to walk to the Branch Avenue Metrorail station in Prince George's 
County, Maryland, where the sidewalks had not been cleared.
    Metro safety issues have received considerable press recently, but 
the degree of press attention has been so great specifically because 
Metrorail fatalities are so rare, while fatalities on roadways are 
common to the point that we have become inured to these tragedies. This 
Congress should not ignore these larger safety concerns, and could draw 
needed attention to them by also conducting oversight into the ways in 
which elements of the entire transportation network, including our 
roadway designs, snow removal policies, and traffic law enforcement 
succeed or fail at maximizing the safety of commuters on all modes.
    A safe, reliable, well-maintained and adequately funded Metro 
system will enhance the entire region, including the Federal 
Government. I thank you for the opportunity to provide testimony and 
would be happy to answer any questions you may have.
    Attachment A.--List of Current Riders' Advisory Council Members
          riders' advisory council roster (as of may 17, 2010)
2010 Officers:
    Chair: Frank DeBernardo
    District of Columbia Vice-Chair: David Alpert
    Maryland Vice-Chair: Victoria Wilder
    Virginia Vice-Chair: Dharm Guruswamy
                              jurisdiction
At-Large:
    Dharm Guruswamy
    Carl Seip
    Patrick Sheehan (Accessibility Advisory Committee Chair)
District of Columbia:
    David Alpert
    Kelsi Bracmort
    Patricia Daniels
    Kenneth DeGraff
    Carol Carter Walker
    Diana Zinkl
Maryland:
    Sharon Conn (Prince George's County)
    Frank DeBernardo (Prince George's County)
    Christopher Farrell (Montgomery County)
    Ronald Whiting (Montgomery County)
    Victoria Wilder (Montgomery County)
Virginia:
    Penelope Everline (Arlington County)
    Robert Petrine (Fairfax County)
    Clayton Sinyai (Fairfax County)
    Lorraine Silva (Arlington County)
    Evelyn Tomaszewski (Fairfax County)
    Lillian White (City of Alexandria)
 Attachment B.--Letter to Board of Directors Concerning Metro's Fiscal 
                       Year 2011 Operating Budget
                                  Riders' Advisory Council,
                                    Washington, DC, April 19, 2010.
    Chairman Benjamin and Members of the Board: This letter serves as 
the formal position of the WMATA Riders' Advisory Council on the fiscal 
year 2011 operating budget, currently estimated to contain a $189.2 
million shortfall.
    First, we recognize and appreciate the efforts of the Board of 
Directors to solicit meaningful public comment on a wide variety of 
proposals to address the current budget situation. Providing the public 
with alternatives has spurred public debate and allowed riders to 
select from a menu of options to create a sound fiscal year 2011 
budget. We strongly encourage the Board and the Authority to review the 
fiscal year 2011 budget and reduce administrative spending as much as 
possible to close the projected budget gap.
    Over the past several months, our members have held lengthy 
meetings devoted purely to the budget, attended public hearings, 
solicited feedback on their commutes, and debated the merits of the 
many different proposals put forward by WMATA staff, the Board and 
other groups.
    This Council is faced with two distasteful options--service 
reductions which could drastically impact the quality of life in our 
region and/or fare increases that might price some residents out of 
using our transit system.
    To limit the need for these drastic options, the R.A.C. continues 
to strongly support increased jurisdictional subsidies and dedicated 
local and Federal funding for the Metro system. While budgets are 
tight, we remain hopeful that local and Congressional leaders will 
fight to expand Metro funding at the jurisdictional and Federal level 
in recognition of the Authority's role as a unique regional and 
national asset.
    We also recognize that Metro will make changes to MetroAccess 
service, continue negotiations with its operating unions to decrease 
costs, cut administrative positions, and continue to explore 
alternative revenue sources in an effort to reduce the budget shortfall 
in fiscal year 2011.
    We are deferring to the Accessibility Advisory Committee's 
recommendations on the proposed changes to MetroAccess, which have 
already been submitted as part of the public hearing record.
    If the Board, after it exhausts all other options to close the 
fiscal year 2011 budget gap, finds that fare increases and service cuts 
on Metrorail and Metrobus are absolutely necessary, the WMATA Riders' 
Advisory Council prefers the following proportions and priorities for 
the Board's decisionmaking:
    If any fare increases should be necessary, we prefer the Board 
implement them in the following order from least to most undesirable:
  --Decreasing the transfer time among all modes from 3 to 2 hours; 
        raising the fare differential for (rail) paper farecards; and 
        instituting a peak-of-peak rail surcharge, which are preferable 
        to
  --Increasing late-night weekend fares (after midnight); increasing 
        the reserved parking fee; and increasing airport bus fares 
        (with the consideration that steps be taken to protect airport 
        workers), which are preferable to
  --Increasing bicycle locker rental fees; increasing general parking 
        fees; and increasing express bus fares for non-airport buses, 
        which are preferable to
  --Increasing the SmarTrip fare differential on bus, which is 
        preferable to
  --Increasing base bus fare along with an increased transfer discount, 
        which is preferable to
  --Increasing regular (rush hour) rail fare, which is preferable to
  --Increasing reduced (off-peak/weekend) rail fare, which is 
        preferable to
  --Any special event fares on rail; peak fare surcharges on crowded 
        bus routes; and increasing base bus fare without increasing the 
        transfer discount, which are preferable to
  --Reducing the age at which children ride free, from under 5 years of 
        age to under three years of age.
    If any service cuts to Metrorail should be necessary, we prefer the 
Board implement them in the following order from least to most 
undesirable:
  --Modifying headways and train lengths on four holidays: Columbus 
        Day, Veterans' Day, Martin Luther King's Birthday and 
        Presidents' Day; Restructuring peak service on the Red Line to 
        have 3 min headways from Grosvenor to Silver Spring and 6 min 
        from Silver Spring to Glenmont and Grosvenor to Shady Grove; 
        and early morning weekday headway widening, which are 
        preferable to
  --Closing station entrances or mezzanine levels (after a full and 
        transparent review of safety and security issues these closures 
        may cause), which are preferable to
  --Weekend headway widening, which is preferable to
  --Late night headway widening, which is preferable to
  --A later weekday opening time at 5:30 a.m., which is preferable to
  --A later weekend opening time at 8 a.m., which is preferable to
  --Earlier weekend closing times; and weekend station closures, which 
        are preferable to
  --Elimination of peak 8-car trains; elimination of Yellow Line 
        service to Fort Totten off-peak/weekends; and elimination of 
        Yellow Line service after 9:30 p.m. and on weekends except for 
        a rail shuttle between King Street--Huntington.
    If any service cuts to Metrobus should be necessary, we prefer the 
Board implement them in the following order from least to most 
undesirable:
  --Reducing and eliminating bus stops after a full and transparent 
        review of cost, safety and security measures that these changes 
        may cause; and reductions in holiday service, which are 
        preferable to
  --Eliminating of line segments/local overlap, which is preferable to
  --Peak-period headway widening, which is preferable to
  --Weekend headway widening; and off-peak weekday headway widening.
    We strongly recommend that any proposals to eliminate entire bus 
lines, weekend routes or service, or late-night (after midnight) trips 
be examined on a case-by-case basis and give consideration to distance 
and accessibility of alternative route service during peak and off-peak 
times and route efficiency metrics.
    Additionally, we suggest the Board find a middle-ground on many of 
the aforementioned fare and service changes. Rather than focusing a 
disproportionate level of service cuts or fare increases on one sector 
of Metro riders, if any are necessary, we strongly prefer a moderate 
slate of cuts and increases that is spread more evenly across the 
entire ridership base.
    If the Board must make fare increases and service cuts, we prefer 
that service cuts represent a very small percentage compared to fare 
increases. As noted above, we hope that increased jurisdictional 
contributions and other savings measures can reduce as much as possible 
the need for fare increase or service cuts.
    As you well know, Metro is our communal responsibility. We all reap 
the benefits when we commute to work, attend cultural events, and visit 
friends throughout the region. It is this Council's sincerest desire to 
work with the Board to find more stable funding solutions so that a 
budget situation such as this one never happens again.
    If you have questions about our proposal or would like to discuss 
this matter further, please contact myself or Carl Seip, Chairman of 
the Committee on the Budget, through John Pasek in the Office of the 
Board Secretary.
            Sincerely,
                                         Francis Deberardo,
                                                             Chair.

    Senator Mikulski. Well, thank you.

                             WORKER SAFETY

    Before I get to kind of the rider questions, I would like 
to go to Ms. Jeter, if I may? I have been disturbed about so 
many things. First of all, the accidents themselves, the 
scathing FTA report, the Gunn report, the things that you have 
all referenced. But the very poignant tale of Mrs. Jeffrey 
Garrard, who called to share her safety concerns, and when she 
said that their solution was have a video and hand out hard 
hats. That there was no backup camera on the maintenance truck, 
the backup sound and lights were disconnected, and Metro didn't 
have floodlights.
    You know, a safe Metro has to ensure the safety of the 
workers to ensure the safety of the riders. Do you feel that 
safety has improved for your workers? Do these patterns 
continue to persist? Or do you feel that steps are being made, 
and what steps do you see being made?
    Ms. Jeter. I can only say that I hear, just like you do, 
that steps are being taken. I am sure that Mr. Sarles has 
tackled those things that are right in front of his face. 
Unfortunately, I think that it is so entrenched that it is 
going to take--I have been disappointed for the last year 
almost. It has been almost a year now that nothing concrete 
other than testing, and I forget what it is called, but it is 
the test that they use to see whether or not they are going to 
have a circuit to fail, is the only safety measure that has 
taken place.
    We have known ever since this accident has occurred, and I 
have talked to not only Garrard's wife, but I also talked to 
Jeanice McMillan's mother, and I have to tell her that your 
daughter was an angel because although she died, she brought 
out a lot of issues that were here, entrenched at WMATA, and we 
have been able to look at them full faced. And hopefully, we 
will find a solution for them.
    But I am disappointed because I keep hearing talk, but I 
don't really hear the ``do.''
    Senator Mikulski. Well, what about the safety and the 
safety training and the safety officer?
    Ms. Jeter. I am looking forward to seeing that. I would 
like to see it right now. And I know for the last couple of 
weeks, I have been getting reports of safety committee meetings 
that have been taking place.
    And because the union, too, has said, okay, we have to step 
up our safety efforts, and we have to be the ones that are 
going after incidents or things that are being told to us by 
the members, there has been a butting of heads, so to speak, 
because it seems like in those safety meetings, there is a plan 
of action that the management comes in with, and the workers 
want to talk about things that are actually happening out on 
the line, and they seem to be butting heads. So I have to look 
into that and find out what is going on because, to me, that is 
not going to resolve.
    Senator Mikulski. Well, it seems to be that there needs to 
be a mechanism of communication between labor and management. 
In your testimony, you talked about relying on the Joint Labor-
Management Safety Committee to address issues. Does that exist, 
and does it function?
    Ms. Jeter. It exists. We haven't met as that particular 
committee for a while. Actually, I got a letter from Mr. Sarles 
this morning, and one of the things that has happened, even 
though we weren't meeting, when Chief Taborn was acting as the 
safety officer, he included that committee in with the WMATA 
Executive Leadership Team [ELT] committee.
    And after I attended a couple of the meetings, I am still 
trying to grapple how they function. But I am not so sure 
whether or not we should do that. But I am willing to see if it 
will work.
    Senator Mikulski. Again, I am not the manager of WMATA, but 
I believe it is in the best interest of the functionality of 
the system that labor and management have a regular systematic 
way of communicating. That it be a regular system. That the top 
union officials have a chance to talk to the top Metro 
management to bring issues of concern. That it is regular and 
that they are systematic and that it have a formalized agenda.
    This is not about contract negotiations. This is about 
problem solving.
    Ms. Jeter. Right.
    Senator Mikulski. Does such a mechanism exist now? You are 
the head of the union.
    Ms. Jeter. I know. I will say, yes, it does because--I will 
say, yes, it exists, but it is not functioning properly. I will 
have to say it that way.
    Senator Mikulski. Well, why doesn't it function properly? 
Does it meet on a regular basis?
    Ms. Jeter. The ELT committee does meet. I don't--I have a 
problem with actually including the two. I think we are going 
in two different directions. The union's position where safety 
is concerned is sometimes not at the same place that this ELT 
committee is.
    Senator Mikulski. I understand that, but I am going to get 
lost in this committee. I mean a subcommittee and this 
subcommittee's name and so on. I am an outcome gal. So my 
outcome is this. What does it take to have labor and management 
meet on a regular basis, to have regular communication of 
things of mutual concern?
    Ms. Jeter. Mr. Sarles and I have spoken of that. We have 
both said that we are going to meet regularly with one another, 
and because of his answer to my letter this morning, concerning 
the Joint Labor-Management Committee, I will talk to him about 
that because----
    Senator Mikulski. So, as of now, almost 11 months since the 
accident, there is no joint regular systematic, joint mechanism 
of communication?
    Ms. Jeter. The Joint Labor-Management Committee that was 
there, we stopped meeting when Alexa Samuels was the head. We 
stopped meeting. And we have had maybe one meeting. I think we 
had one meeting in February.
    Senator Mikulski. Okay, let us stop. Mr. Sarles, what do 
you think? Do you think we can get something going here?
    Mr. Sarles. Absolutely. In fact, inside of that first 2 
weeks, I met with Jackie, and we personally are going to meet 
about once a month to go over safety concerns, besides what is 
going on in the organization.
    Senator Mikulski. There has to be exactly this. You might 
have one view of what the safety issue is. They might be 
experiencing operational difficulty, and they are the ones on 
the line. They might know things you don't know or technology 
doesn't reveal or hasn't come up the chain of command. Or in 
the same way, if you are looking to approve it, get greater 
cooperation, suggestions on a variety of things, you need to 
have the assistance of the union. It is in their interest that 
everything be safe.
    Ms. Jeter. That is correct.
    Senator Mikulski. Because they are the first to experience 
any breakdowns for not only such a horrific thing as death, but 
also injury, even if it is temporary injury, you know? So I am 
going to hope that what comes out of this hearing and some of 
the correspondence recently is that there is a regular way of 
communicating.
    Ms. Jeter. We will make that happen.
    Senator Mikulski. Okay?
    Ms. Jeter. Yes.

                              RIDER SAFETY

    Senator Mikulski. I will come back to some of the other 
issues. I would like to get to the riders for a minute now.
    So, tell me, using an old Ronald Reagan phrase, my good 
friend Ronald Reagan, when he said, ``Are you better off now 
than you were 4 years ago?'' Do you remember that famous 
question?
    Do you think that Metro is more of a safe place now than it 
was on June 22, 2009? Do you think that there have been 
improvements that you experience? And I raise that to both of 
you.
    Mr. Corbett. In my judgment, yes. We don't have the day-to-
day experience that Ms. Jeter has with her members, but if one 
listens to the WMATA board meetings, you hear more of a concern 
about safety now than you did a year ago. It was embarrassing 
to me to hear that a WMATA board member said I've been a board 
member for 12 years, and I have never heard of this Tri-State 
Operating Committee. That was about a year ago.
    It is much different now. The board members are much more 
attuned to safety, and we think at least in terms of that 
verbal level, which is all we can respond to, it is much better 
than it was then.
    Senator Mikulski. Would you want to add or elaborate on 
that?
    Mr. Corbett. I am sorry?
    Senator Mikulski. So you feel that there is progress and 
momentum, but more needs to be done as you recommend in your 
excellent testimony?
    Mr. Corbett. There is--thank you. We really are awaiting 
the results of the National Transportation Safety Board to see 
what WMATA does to those. Those could be very costly 
recommendations, and how they respond to those is going to be a 
very good signal as to whether the jurisdictions can come up 
with the money to address the NTSB concerns.
    Senator Mikulski. Well, it will be my intention that when 
the NTSB makes their recommendations that we have a public 
discussion of that. In other words, what are they recommending? 
What was the rationale behind those recommendations? Then, to 
get a sense of what it would take to implement it other than 
budgetary and managerially.
    Mr. DeBernardo?
    Mr. DeBernardo. I would concur with Mr. Corbett. I think 
that there is definitely a renewed sense of urgency about the 
safety issue, and I am very optimistic that Mr. Sarles's new 
program of reporting vital signs of Metro will be very helpful 
for riders.
    Senator Mikulski. Now to your Vital Signs, which we think 
is terrific, so the Vital Signs is the way that the riders can 
communicate, in addition to your official board capacity. Am I 
correct?
    Mr. DeBernardo. We are advisory to the board, yes.
    Senator Mikulski. So that is, and do you have regular 
systematic meetings where you can bring rider concerns to the 
board?
    Mr. DeBernardo. Yes, we do monthly meetings.
    Senator Mikulski. So you have a regular monthly meeting?
    Mr. DeBernardo. Right. And we are hoping that with the 
Vital Signs report, when that comes out, it will give us a 
basis for discussion with the board and with the management at 
Metro.
    Senator Mikulski. Now you said in your testimony extolling 
the virtues of Vital Signs, you talked about measurement, which 
is what I talked about in my opening remarks and some of the 
questions to the WMATA leadership. You said nothing gets acted 
on unless it is measured or that which is measured----
    Mr. DeBernardo. That which is measured gets done.
    Senator Mikulski. Yes. So what did you mean by that? And 
what would you recommend, for our information, but also to the 
leadership, that really needs to be measured?
    Mr. DeBernardo. Well, in terms of reliability, things like 
on-time service and frequency of buses and breakdowns of buses 
and trains. At present, with our Riders' Advisory Council, we 
are based a lot on anecdotal evidence, and I think that these 
Vital Signs, by measuring, by having a measurement, will give 
us better ways of discussing improvements.
    Senator Mikulski. So rather than somebody saying, oh, I 
feel hot or I feel dizzy.
    Mr. DeBernardo. Right.
    Senator Mikulski. I have pains in my arm, you take the 
blood pressure and so on, and you actually get vital signs 
about, are you okay? Are you heading for a problem?
    Mr. DeBernardo. Right. And is it a real problem? How 
extensive is the problem? Is it a problem that by looking at 
the Vital Signs, we can often look at the causes of the problem 
as well.
    Senator Mikulski. Well, we get this anecdotal information 
too. I will speak for myself, and I know that Senator Cardin 
gets it too. We have talked about it. We hear about out-of-
service escalators and elevators. That is a top favorite, as 
well as closed entrances and exits and train delays. Also, no 
communication about what is going on when trains break down.
    Lots of loud announcements that you really can't hear. In 
other words, it is so loud that you can't hear it. You can't 
decipher it. I am not talking about aging people or someone, 
just regular folks. Then they also say, ``I don't know. I don't 
have a number to call. So I called you.'' Sometimes they call 
me a lot of things.
    Not only me, but we could talk about Congresswoman Norton, 
my colleagues Webb and Warner, and the House Members. Riders 
call us because we are visible, and we have publicly disclosed 
numbers.
    So do you feel that riders have a number to call if they 
have a problem or an e-mail address that they can send 
concerns?
    Mr. DeBernardo. Yes. I think there are many avenues at 
Metro for--I don't think all the time that the riders 
themselves are aware of the many avenues, but I can tell you 
that since I joined the Riders' Advisory Council about a year 
and a half ago, I was made aware of many more opportunities for 
addressing problems than I knew existed.
    Senator Mikulski. What about you, Mr. Corbett?
    Mr. Corbett. Can I be a negative voice on that?
    Senator Mikulski. Sure.
    Mr. Corbett. When people don't call you, they call us. And 
quite often, we get very irritable people who have tried to 
send in a complaint to the WMATA complaint system, and it is 
very bureaucratic. They give you a number, and I am not sure 
that the service really improves. I think they need more 
manpower on that issue.
    Second, we divide between really important and nice to 
have. Whether there is too much noise in the system--that is 
nice to have. But if the escalator is broken and a heavyset 
person has got to walk up 123 steps, that is a safety item. So 
we try to divide those between nice to have and really 
important.
    And I think, frankly, in this coming year under Mr. 
Sarles's leadership and that of Mr. Benjamin, if they can work 
on the got to have safety items, we would be happy with that, 
and we will give them extra time on the nice to have items.
    Senator Mikulski. Well, it is the way I work, even when we 
do appropriations. I have a must do, should do, and would like 
to do list. The must dos have to get done. Then we go to the 
should dos.
    So what you are saying is have the must dos and should dos 
and that would go a long way?
    Mr. Corbett. Yes.
    Senator Mikulski. Is that correct?
    Mr. Corbett. That is correct.

                        WMATA BOARD APPOINTMENTS

    Senator Mikulski. But one of your points, though, is the 
GSA has got to get cracking on these two other Federal board 
appointments?
    Mr. Corbett. Yes, speaking very frankly--and you invited us 
to speak frankly--the members of the board from the 
jurisdictions, they are somewhat protective of their 
jurisdictions. If they don't have money, they don't recommend 
things that they know are needed. Having the two Federal 
appointees already is opening up that process a little bit, but 
we think that the other two appointees should be appointed 
soon. One of them should be a designated rider representative.
    And we think they can help to open up the board so that 
some pressure can be put on the jurisdictions to come up with 
additional money for additional capacity.
    Senator Mikulski. Well, let me say what I am going to do in 
this testimony here, because Ms. Jeter also had recommendations 
for the board, we are going to take your recommendations and 
send them on to GSA. Because you have made recommendations, and 
you also have your underpinnings as to why you feel that the 
characteristics you are recommending would improve safety and 
operational reliability.
    We are going to say this is who we heard from. The people 
who use the system, the people who work on the system, and the 
people who are going to count on a board that--particularly 
when its Federal partners--brings some assets to the table 
themselves. So we would like to bring your recommendations to 
GSA and to tell GSA kind of get moving on it. Isn't that what 
you are saying? Get moving on it?
    Mr. Corbett. Yes. Yes.

                        WHISTLEBLOWER PROTECTION

    Senator Mikulski. Let us go to Ms. Jeter. The one thing 
that came out in both the Gunn report and also in your 
testimony is the whistleblower situation.
    Ms. Jeter. Yes.
    Senator Mikulski. Also the ``kill the messenger'' problem, 
where it is difficult at times to speak freely because you are 
concerned about some form of retaliation.
    Ms. Jeter. Right.
    Senator Mikulski. Do you feel that the climate toward 
whistleblowers has improved?
    Ms. Jeter. It hasn't improved because the employees who 
would utilize that type of system don't know that it even 
exists. I don't believe that there is a climate at WMATA to 
embrace that type of activity among the employees.
    I can tell you, even the incident that has been given so 
much public attention--the incident at Wheaton--when I spoke to 
the operator of the train, his first, initial response to me 
was ``I didn't want to put it on the air. So I used the ETS box 
because I didn't want them to feel like I was trying to make a 
big deal.'' And that, to me, is the climate that is surrounding 
the members of the local that I represent.
    Some people might shrug it off and say it is normal 
paranoia that a lot of American citizens have these days. But 
for the most part, you probably will not find that many 
individuals reporting certain incidents because they don't 
believe--either they don't believe that WMATA is going to take 
care of them, or that in some type of way, they are going to be 
retaliated against for giving the information.
    And I give you another example, the IG had a setting where 
she went in to talk to employees, and one of the people that 
was there was one of the shop stewards that I have, and the 
shop steward informed me that during that meeting, people did 
not want to speak up freely, even though the IG said, ``Nothing 
is going to happen to you. I want you to speak up freely to 
me.'' She said most of them did not.
    A lot of conversation happened after the meeting, but not 
during the meeting.
    Senator Mikulski. Well, we will take a look at how to 
strengthen the whistleblower legal provisions. But I would 
strongly recommend in the interim, people who have those 
concerns bring it to those that they elected to represent them 
in the workplace. Since we are now going to have a labor-
management organized and systematic way of communicating. You 
can then, if necessary, preserve their anonymity, or whatever.
    I am a big believer in people being able to come forward, 
and lots of times, the ability to come forward could save a 
life or help someone from being hurt or maimed. We need to be 
able to have that communication.
    The fact we have got so many things going for us, I mean, 
we have a system that really people like and use. I mean, that 
is one of the things, when I read the papers and follow the 
news on the public hearings, people really like WMATA, and they 
really want to use it, and they are willing to pay for it out 
of their own pocket.
    There are days that they function in heroic fashion that I 
believe it was Mr. Benjamin that spoke about and I have spoken 
about 9/11. That the subway system helped Washington evacuate 
in a safe, orderly and non-panicked way. The performance during 
the Obama administration and then even during the rocking-
rolling times of the recent snow situation, which bordered on 
almost a natural disaster. I mean, it was a slow version of a 
hurricane.
    So we have got a lot going for the system, and I think we 
can feel proud of the people who work there. Efforts have been 
made. I think there are certain things that have been falling. 
So we want to build on the asset. The most important asset that 
WMATA has that we can directly impact upon is the workers and 
getting them the ability to communicate and come forward and be 
able to do that.

                     FEDERAL FUNDING AND OVERSIGHT

    The other is, I will really say, that WMATA does need 
reliable revenue streams. You could have the will, but if you 
don't have the wallet, it is very difficult to fix these 
things.
    I think we have identified a couple of things today. One, 
we continue to support the Federal share. In supporting the 
Federal share, we really do want to insist on maintenance of 
effort from the States and locals. I think we also have 
identified an area where the Federal Government has created a 
mandate, and it is an appropriate mandate. It is a very 
important tool to ensure people's physical and economic 
independence. If you can't get to work, even if you have had 
the best rehab, or keep your doctor's appointment, but there 
needs to be a way then to consider how at the national level to 
be able to do that.
    I also believe that we need to pass not only the 
President's budget, but I think we need to pass what the 
President is recommending in rail reform, giving FTA more 
authority. I have got my own bill, along with Senator Cardin 
and others, to do that.
    So I think we have got our own reform efforts. I will say 
what I said. We all have to feel we are in this together. So 
this isn't about finger pointing and so on, rather that we all 
have to take ownership for the safety offices.

                        WITNESS RECOMMENDATIONS

    So before I wrap up, I am going to ask each and every one 
of you, is there anything else you want to say: a 
recommendation; an observation; or an insight that you would 
like to share for the official record. This is an official 
congressional hearing. There is going to be an official 
congressional record of this. We can go down the row.
    Ms. Jeter. Well, I know that I put everything, even the 
things that I did not read, in my testimony, and I can say on 
behalf of the members of Local 689, we support those acts or 
those bills that you are trying to pass. And so, we will do 
whatever we can to make sure that that happens.
    Senator Mikulski. Thank you.
    Mr. Corbett. Senator, we very much appreciate this hearing 
and you listening to riders' views. The one other item I would 
like to suggest for the Congress is to consider extending what 
is called the ``transit commute.'' In the economic stimulus 
bill, the employer discount that is for $230 a month is going 
to automatically reduce to $115 at the end of this calendar 
year unless some vehicle of the Senate Finance Committee 
doesn't fix that item up.
    And to keep people out of their cars and benefiting from 
the parking subsidy, we think having the transit have equal 
weight would be very helpful, and this Congress could do that 
this year.
    Senator Mikulski. Thank you.
    Mr. Corbett. Thank you.
    Senator Mikulski. Very good idea.
    Mr. DeBernardo. And finally, I would just like to say that 
we know of your concern, and we appreciate it. And we are glad 
that we are working together to improve Metro.
    Senator Mikulski. Well, as citizen activists and civic 
engagement, I know that, for example, Ms. Jeter is the official 
union representative and does a very good job at it, but she 
does a lot like you, both of you on your own time and on your 
own dime. But you know, I think this is what is different from 
our country. I mean, we have got to be able to get together, 
put it out on the table, speak uncensored and unfettered, and 
let us solve some of these problems.
    We really thank you for your insights. This concludes our 
hearing, and I wish to state for my colleagues and for the 
record, we will leave the record open for additional questions.
    I know Senator Murray has an extensive set of questions. 
Senator Bond, who is the ranking member, also tied up on the 
financial security, could have extensive questions as well, 
those will be really for the WMATA leadership. With that, the 
hearing is recessed.

                          SUBCOMMITTEE RECESS

    This subcommittee will hold its next hearing on May 20. It 
will turn its attention to its housing portfolio, when Senator 
Murray will hold a hearing on the progress being made to end 
the homelessness among veterans because this does have the 
homeless portfolio. To think that you have housing when you 
fight over there, but you don't have it when you come back here 
is a national disgrace. So she will be holding a hearing on 
that.
    We thank you for your participation and the subcommittee is 
recessed.
    [Whereupon, at 5:49 p.m., Wednesday, May 19, the 
subcommittee was recessed, to reconvene at 10 a.m. Thursday, 
May 20.]

</pre></body></html>
